FINANCIAL-RELATED AND PERFORMANCE AUDIT
     OF THE INDUSTRIAL EXCHANGE, INC.,
 GOVERNOR’S 15 PERCENT WELFARE-TO-WORK
      DISCRETIONARY FUNDS PROGRAM
   DECEMBER 16, 1998, THROUGH JUNE 30, 2001




                          Office of Inspector General
                          Office of Audit
                          Report No. 06-02-004-03-386
                          Date Issued: March 20, 2002



                     i
                                           TABLE OF CONTENTS
                                                                                                                  Page
Acronyms and Abbreviations ............................................................................................ii

Executive Summary..........................................................................................................1

Background .......................................................................................................................3

Objectives, Scope, and Methodology ...............................................................................4

Findings.............................................................................................................................6

  1. THA did not follow procurement procedures in order to select IndEx as a
     WtW service provider; consequently, THA contracted with an organization
     not financially solvent or proven successful enough to administer Federal
     grant funds................................................................................................................6

  2. IndEx spent $561,649 of the Governor’s WtW Discretionary contract funds while
      providing inadequate training and services to only a few participants resulting in
      dismal program outcomes. .....................................................................................11

  3. IndEx did not come close to meeting either contract's performance
      goals. ......................................................................................................................16

  4. IndEx’s financial management system was inadequate to account
     for Federal grant funds. ...........................................................................................18

Conclusion and Recommendations .................................................................................30

Attachment 1: Participant Synopses ..............................................................................31

Attachment 2: Pre-Contract Costs for Cont ract 1 ...........................................................34

Attachment 3: Duplicate Payments for Contract 1 ........................................................35

Attachment 4: Late Payment Fees for Contract 1 ..........................................................36

Attachment 5: Late Payment Fees for Contract 2 ..........................................................37

Attachment 6: Inadequate Documentation for Contracts 1 and 2 ..................................38

Attachment 7: Voided or Missing Checks for Contract 2..............................................39

Attachment 8: Schedule of Questioned Costs................................................................40

Appendix I: THA’s and OESC’s Responses to Draft Audit Report..............................41



                                                                 i
                ACRONYMS AND ABBREVIATIONS

ABE     Adult Basic Education
CAP     Cost Allocation Plan
CFR     Code of Federal Regulations
DHS     Department of Human Services
DOL     Department of Labor
ETA     Employment and Training Administration
GAAP    Generally Accepted Accounting Principles
GED     General Equivalency Diploma
HUD     Housing and Urban Development
IndEx   Industrial Exchange, Incorporated
MTTA    Metropolitan Tulsa Transit Authority
MTCC    Metropolitan Tulsa Chamber of Commerce
OESC    Oklahoma Employment Security Commission
OIG     Office of Inspector General
OJA     Office of Juvenile Affairs
OJT     On-the-Job Training
OMB     Office of Management and Budget
PSO     Public Service Company of Oklahoma
TANF    Temporary Assistance for Needy Families
THA     Tulsa Housing Authority
WtW     Welfare-to-Work




                                     ii
                              EXECUTIVE SUMMARY

The Tulsa Housing Authority (THA) selected Industrial Exchange, Inc. (IndEx), a
501(c)(3) nonprofit organization, as a service provider under the Governor’s 15 percent
Welfare-to-Work (WtW) Discretionary Grant funds. It was the THA’s executive
director’s understanding that THA’s WtW contract funds were to go to IndEx.
Consequently, THA circumvented required procurement procedures by sole source
contracting with IndEx under THA’s contracts with the Oklahoma Employment Security
Commission (OESC) and the Office of Juvenile Affairs (OJA).

THA’s sole source procurement and poor oversight of its contracts with IndEx
contributed to IndEx’s waste, abuse, and mismanagement of WtW funds. IndEx
provided questionable training through its work experience program that resulted in
dismal performance outcomes. IndEx failed to come close to meeting its contract
performance goals and it mismanaged, wasted, and abused WtW funds. As a result of
these issues, the OIG questions the entire $561,649 for the IndEx WtW program.

THA’s and OESC’s Responses to Our Draft Report

OESC responded that it did not direct THA to contract with IndEx, and the Governor’s
office did not direct OESC to get the money to IndEx. THA responded that as a result of
the way it was solicited to participate in the Governor’s WtW 15 percent program and
contract language in its contracts with both OESC and OJA, THA understood the funds
were to go to IndEx. Therefore, THA sole sourced the service agreements with IndEx.

Rather than responding to IndEx’s poor financial and program performance, both THA
and OESC discussed IndEx’s history prior to receiving the WtW contracts and IndEx’s
original purpose and program design. THA commented on the difficulty of recruiting
participants prior to the revised eligibility criteria. However, THA believes IndEx
deceptively inflated its enrollment and attendance numbers in order to make its program
appear more effective than it was. Furthermore, OESC stated it was surprised and
extremely disappointed in IndEx’s performance documented by the OIG.

Finally, OESC does not think that all costs should be questioned based on the fact that
some participants were served.

THA’s and OESC’s entire narrative responses are included in this report at Appendix I.

OIG’s Conclusion

In our opinion, the IndEx procurement was not in accordance with administrative
requirements, no matter the intent. Furthermore, the bottom line is IndEx’s financial
accountability systems were inadequate, unallowable costs were incurred, and program
performance was extremely low based on the costs incurred, especially when very little
funds went to the participants; i.e., funds were used to sustain IndEx. Consequently, our
position remains unchanged.



                                            1
Recommendations

We recommend the Assistant Secretary for Employment and Training disallow
questionable costs of $561,649 for IndEx’s dismal performance outcomes and their
mismanagement, waste, and abuse of WtW funds and for THA’s procurement of services
from IndEx without competition.

Furthermore, we recommend the Assistant Secretary direct the State to ensure:

   •   contractors and subcontractors adhere to Federal and State regulations in
       procuring services from providers;

   •   service providers use an appropriate method of allocating costs;

   •   service providers maintain adequate documentation to support allocation of costs
       to WtW programs;

   •   service providers maintain an adequate time distribution system that reflects the
       actual activity of employees; and

   •   service providers properly account for program income.




                                          2
                                    BACKGROUND

Industrial Exchange, Inc. (IndEx), was established in 1992 by the Tulsa Chamber of
Commerce as a 501(c)(3), nonprofit organization. IndEx was designed to reduce labor
costs for local companies and keep jobs in the region by contracting with these
companies to perform light manufacturing and packaging work at a central site through a
work experience program.

As part of a special audit that the State of Oklahoma Office of the Auditor and Inspector
performed on the Oklahoma Employment Security Commission’s (OESC) WtW
program, the auditors noted several problems with a WtW program being operated by
IndEx, a subrecipient. Based on the State Auditor and Inspector’s referral, the Office of
Inspector General performed a financial-related and performance audit of IndEx’s WtW
program.

IndEx entered into two service agreements (hereafter referred to as Contracts 1 and 2) to
operate the WtW programs.

Contract 1: The OESC issued a $150,000 subgrant to the Tulsa Housing Authority (THA),
which was funded by the Governor’s 15 percent WtW Discretionary Grant funds. Of this
$150,000, THA retained $19,500 for administrative oversight and gave IndEx $130,500 to
provide training and services to eligible WtW participants. Contract 1 covered the period
December 16, 1998, through September 29, 1999.

Contract 2: The OESC issued a $1,011,228 subgrant funded by the Governor’s 15 percent
WtW Discretionary Grant funds to the Office of Juvenile Affairs (OJA), which subcontracted
$372,741 to the THA. THA gave the entire $372,741 to IndEx to provide training and
services to eligible WtW participants. Contract 2 covered the period April 9, 1999, through
June 30, 2001. After IndEx spent all of its funds under Contract 2, it spent $38,908 from
another Governor’s 15 percent WtW Discretionary Grant- funded $600,000 grant that THA
received from OESC. Because of concerns about the program, THA took over the program
from IndEx, and then OESC froze the funds pending completion of the State Auditor and
Inspector’s review.

IndEx’s WtW work experience program consisted of contracting with vendors such as
Hilti and Whirlpool to assemble and package products. IndEx provided the labor and
worksite. The vendors paid IndEx a negotiated price for the product. IndEx did not pay
41 percent of the WtW participants for their labor; instead, the participants were allowed
to keep their TANF benefits.

IndEx did not assess most participants with a training plan, nor did it have documents to
support post-employment activity such as computer classes or basic skills training.




                                           3
                     OBJECTIVES, SCOPE, AND METHODOLOGY

Our audit objectives were to perform a financial-related and performance audit to determine:

    •   why procurement procedures were not followed in selecting a WtW service provider;

    •   if costs reported by IndEx were allowable, allocable, properly classified, and
        supported by adequate documentation;

    •   if participants were eligible, adequately served, and if funds expended on the
        program/participants were reasonable for the services received; and

    •   if performance met the contract and WtW rules and regulations.

We performed a financial-related and performance audit of WtW discretionary funds
received by IndEx from two contracts. The audit period for Contract 1 was
December 16, 1998, through September 29, 1999; for Contract 2, April 9, 1999, through
June 30, 2001.

We reviewed:

   •    The State Auditor and Inspector’s special audit report for July 1, 1998, through
        June 30, 2000.

   •    The State Auditor and Inspector’s working papers for their continuing work
        subsequent to issuance of the special audit report.

   •    IndEx’s and THA’s responses to the State Auditor and Inspector’ findings from
        continuing work subsequent to issuing their audit report.

   •    OESC’s monitoring reports. Since problems noted in the monitoring reports and
        auditors’ working papers were extensive, and since participants enrolled and
        funds received by IndEx were nominal, we analyzed all participant files and all
        financial transactions.

   •    Documentation provided by IndEx and THA to support charges to the WtW
        program.

We interviewed some IndEx and THA staff, some participants, and an owner of a
company that contracted with IndEx.

In many cases, we adopted and/or expanded on the State Auditor and Inspector’s
findings.




                                           4
Our audit work was not intended to express an opinion on the financial statements or
program costs claimed. Therefore, we did not consider the internal control structure and
no such opinion is given.

Our audit was performed in accordance with generally accepted auditing standards and the
Government Auditing Standards issued by the Comptroller General of the United States.




                                          5
                                       FINDINGS

1. THA did not follow procurement procedures in order to select IndEx as a WtW
   service provider; consequently, THA contracted with an organization not
   financially solvent or proven successful enough to administer Federal grant
   funds.

THA, whether specifically directed or based on a misunderstanding, circumvented the
procurement process by issuing sole source contracts to IndEx to be a WtW service
provider. Some of the funds THA passed down to IndEx were received directly from
OESC. Other funds THA passed down to IndEx went from OESC through the Office of
Juvenile Affairs (OJA) to THA.

In response to the State Auditor and Inspector’s finding that procurement procedures
were not followed, THA stated:

       OESC staff informed THA staff the Governor had instructed that such
       funds be directly awarded from THA to IndEx, Inc. . . .

In response to our draft report THA responded:

       No THA employee can positively attest to any employee of OESC or OJA
       stating as a fact the Governor directed such funds go to IndEx.

However, THA’s response to our draft report indicated their understanding was that the
funds were to go to IndEx:

       Tulsa Housing Authority did not competitively select IndEx as a service
       provider. THA’s first notice of the availability of WtW funds came from a
       telephone conversation with Mr. Wayne Rowley, President of IndEx. . . .
       Mr. Rowley informed the Executive Director of THA that the Governor
       desired to send part of his 15% Welfare to Work (WtW) discretionary funds
       to IndEx. It was also the understanding of THA staff based upon subsequent
       discussions with the staff of the Oklahoma Employment Security
       Commission (OESC) and the Office of Juvenile Affairs (OJA) that such
       funds were to come to IndEx. . . .

Regardless of how IndEx was selected as a WtW service provider, in our opinion, IndEx
was not financially solvent to successfully administer the WtW program.

IndEx’s inadequate financial position is demonstrated by the fact that as of
December 31, 1998, IndEx’s aged accounts payable ledger showed a balance of $23,780
for accounts over 90 days past due. As of December 31, 1999, IndEx’s aged accounts
payable ledger showed a balance of $43,910 for accounts over 90 days past due. In
addition, for 9 of 27 months between January 1999 and March 2001, IndEx incurred




                                          6
$3,150 of insufficient funds charges and overdraft and returned items fees on its bank
statements.

IndEx also did not have a record of past success as a service provider. A September 1997
report -- 15 months prior to THA’s contract with IndEx -- written by Manpower
Demonstration Research Corporation stated:

        . . . no reliable data are available on the rate of job placements or on
       retention in unsubsidized work, which would provide a measure of IndEx’s
       overall success.

In addition, an IndEx official informed the OIG that IndEx did not have experience with
Federal programs before receiving the WtW funds.

29 CFR part 95, sec. 43 Competition, provides the following:

       All procurement transactions shall be conducted in a manner to provide,
       to the maximum extent practical, open and free competition. The recipient
       shall be alert to organizational conflicts of interest as well as
       noncompetitive practices among contractors that may restrict or eliminate
       competition or otherwise restrain trade. . . . Awards shall be made to the
       bidder or offeror whose bid or offer is responsive to the solicitation and is
       most advantageous to the recipient, price, quality and other factors
       considered. Solicitations shall clearly set forth all requirements that the
       bidder or offeror shall fulfill in order for the bid or offer to be evaluated
       by the recipient. Any and all bids or offers may be rejected when it is in
       the recipient's interest to do so.

Sec. 95.44, Procurement procedures, provides the following:

       (d) Contracts shall be made only with responsible contractors who possess
       the potential ability to perform successfully under the terms and
       conditions of the proposed procurement. Consideration shall be given to
       such matters as contractor integrity, record of past performance, financial
       and technical resources or accessibility to other necessary resources. In
       certain circumstances, contracts with certain parties are restricted by
       agencies' implementation of E.O.'s 12549 and 12689, ‘Debarment and
       Suspension.’ See 29 CFR Part 98.

       (e) Recipients shall, on request, make available to DOL, pre-award and
       procurement documents, such as request for proposals or invitations for
       bids, independent cost estimates, etc. . . .




                                           7
Sec. 95.45, Cost and price analysis, provides the following:

       Some form of cost or price analysis shall be made and documented in the
       procurement files in connection with every procurement action. Price
       analysis may be accomplished in various ways, including the comparison
       of price quotations submitted, market prices and similar indicia, together
       with discounts. Cost analysis is the review and evaluation of each element
       of cost to determine reasonableness, allocability and allowability.

Sec. 95.46, Procurement records, provides the following:

       Procurement records and files for purchases in excess of the small
       purchase threshold shall include the following at a minimum: (a) basis for
       contractor selection, (b) justification for lack of competition when
       competitive bids or offers are not obtained, and (c) basis for award cost or
       price.

As a result of THA selecting an insolvent service provider with no record of past performance
of administering Federal funds, WtW participants received training that was of little value that
resulted in poor performance outcomes. Furthermore, IndEx’s financial management system
was inadequate to administer Federal grant funds. The OIG questions the validity of IndEx’s
selection as a WtW service provider and also questions the validity of the training as a result
of this procurement.

THA’s and OESC’s Responses to Our Draft Report and OIG’s Conclusions

Some of THA’s response regarding sole source contracting has been incorporated into the
finding. Other comments included:

   •   OESC approved THA’s sole source service agreement with IndEx.
   •   Administrative requirements allow for sole source contracts.

While it was THA’s understanding that OESC intended for THA to sole source contract
with IndEx and while administrative requirements allow for sole source contracts, THA
has not demonstrated that the requirements for a sole source contract were met.

Regarding IndEx’s insolvency, THA responded that the financial conditions discussed in
the draft report do not necessarily indicate insolvency. Yet, THA further stated:

       It is clear that if you have the luxury of looking back for 27 months you
       could state this fact was an indicator of potential financial problems. A
       retrospective look back from 2001 is not possible in 1998, when the
       contract began.

       Tulsa Housing Authority had no reason to believe, prior to or subsequent
       to the contracts that IndEx was in financial difficulty or insolvency.



                                           8
THA responded that because of IndEx’s past reputation (based on newspaper and
magazine articles) and the individuals and the organization involved with IndEx, THA
had no reason to believe that IndEx was or would become insolvent. As the entity
responsible for contracting with IndEx, it was THA’s responsibility to determine IndEx’s
financial integrity and ability to perform.

THA also disagreed with the OIG’s statement that IndEx did not have experience with
Federal programs prior to receiving the WtW funds. Our position was based on a
statement made by IndEx’s executive director. THA indicates tha t IndEx “collaborated”
with THA on Department of Housing and Urban Development grant programs and
provided a major role in administration of the programs. However, THA did not define
what collaboration and administrative roles IndEx played in those grants. We assume
that the IndEx’s executive director would know what experience IndEx had in those
programs and did not consider that role as “administering Federal grant funds.”

The OESC responded that no one at OESC directed THA to contract with IndEx, and that
the OIG has no evidence that the Governor’s office directed OESC to give money to
IndEx.

The OIG has evidence that:

   •   The Governor wanted the IndEx program replicated in various communities.

   •   The OESC determined that a competitive process to replicate the IndEx program
       ran the risk of not receiving eligible, responsive bids and the potential loss of the
       grant funds.

   •   The OESC determined that using governmental units was the best alternative to
       replicate the IndEx program.

   •   A Governor’s office representative’s position was to find appropriate projects,
       primarily IndEx, where OESC could give the money to governmental
       organizations.

   •   The OESC used Mr. Wayne Rowley, IndEx’s president, to “scare up some
       governmental entity” in some communities to replicate the IndEx program.

   •   The THA did not initiate the contract with OESC nor did THA “apply” for the
       WtW funding. The THA’s first notice of WtW fund availability came from a
       conversation between Mr. Wayne Rowley and THA’s executive director.

   •   Mr. Rowley informed the THA executive director that the Governor desired to
       direct part of the WtW 15 percent discretionary funds to IndEx, Inc., but needed a
       governmental entity to act as a pass through for the funds because OESC could
       not directly give the money to IndEx, Inc.


                                           9
The above evidence, while maybe not documenting that the Governor’s office directed
OESC, and OESC directed THA, to contract with IndEx, Inc., according to affidavits
from both THA’s executive director and grants administrator, the intent was clear to
THA. Accordingly, THA sole source contracted with IndEx, with the OESC’s approval
of the service agreement between IndEx and THA.

Regardless of how IndEx, Inc., obtained its contracts from THA:

   •   IndEx, Inc., had poor performance.
   •   IndEx’s financial management systems were inadequate to account for Federal
       grant funds.
   •   Very little of the grant funds were payments to participants; i.e., the funds went to
       support IndEx.

The OIG’s position that the contracts between THA and IndEx were inadequate
procurements remains unchanged.

Both THA’s and OESC’s entire responses can be found at Appendix I at the end of this
report.




                                          10
2. IndEx spent $561,649 of the Governor’s WtW Discretionary contract funds while
    providing inadequate training and services to only a few participants resulting in
    dismal program outcomes.

The $561,649 IndEx spent on the WtW program was not reasonable based on the number
of participants served and the type of services provided. In our opinion, IndEx used the
Governor’s WtW Discretionary funds to keep the nonprofit solvent rather than to benefit
TANF recipients. The vast majority of the funds were spent on administrative costs,
mostly when few, or no, participants were enrolled –- 54 percent of the participants were
enrolled in the last 9 months of the inclusive 30-month contract period. Furthermore,
approximately 41 percent of the few enrollees received no wages from IndEx even
though IndEx was compensated by businesses for the services the participants provided.
These participants received only their TANF benefits.

IndEx enrolled all participants in work experience described as light manufacturing,
packaging, assembly, or occasionally mail regardless of their educational background or
experience. Of the 59 individuals, 18 (30 percent) were high school graduates or had
their GEDs at the time they enrolled, including 2 participants with 2 years of college.
The work experience activities required very little skill to perform; therefore, the
participants gained little useable skills.

Program outcomes

IndEx charged the WtW program $561,649 for the period December 16, 1998, to
June 30, 2001, during which time 80 percent (47) of the 59 individuals IndEx enrolled
either dropped out, were not eligible, or were dismissed. Only 12 percent (7) obtained
employment.

Of these 59 individuals:

   •   24 were enrolled between December 1998 and September 1999.
   •    3 were enrolled between October 1999 and September 2000.
   •   32 were enrolled between October 2000 and June 2001.

While 54 percent of the participants were enrolled during the last 9 months of the 30
months of the two contracts, 88 percent of the two contracts’ funds were spent prior to
October 1, 2000, when only 46 percent of the participants were enrolled. Furthermore,
between April 1999 and September 2000, IndEx spent 93 percent of Contract 2
expenditures on only 9 percent (3 of 35) of the participants enrolled under Contract 2.

Specifically, of the 59 participants in IndEx’s work experience activity:




                                          11
   •   28 participants (47 percent) dropped out of the program.

   •   8 participants did not complete the program because IndEx dismissed them for
       various reasons.

   •   7 participants quit the program before IndEx determined them eligible. (The
       OIG did not consider these individuals to be participants.)

   •   4 participants did not meet the program’s eligibility criteria. (See attachment 1,
       participant synopsis 07B, 26B, and 32B for examples.)

   •   1 participant transferred from one WtW grant to another.

   •   2 participants transferred to another program.

   •   2 participants obtained a General Equivalency Diploma (GED) and dropped
       out of the program.

   •   7 participants obtained employment; two of these also obtained a GED.

Of the seven individuals who obtained employment:

   • One obtained seasonal work.

   • One remained employed by IndEx performing the same type of work she had been
     doing in her work experience (see attachment 1, participant synopsis 13A).

   • One worked less than 6 months for a medical center earning $5,439, and then she
     worked for a temporary employment agency and earned less than $167.

   • One quit the work experience program and obtained a part-time job herself at a fast food
     restaurant.

   • One obtained employment with a temporary employment agency for approximately 1
     month after quitting IndEx and soon became unemployed.

   • One obtained employment with a nonprofit organization at $8 per hour (see attachment
     1, participant synopsis 21B).

   • One obtained employment performing factory work at $7.50 per hour and was fired
     approximately 2 months later.




                                         12
Excessive expenditures on few participants

In addition to dismal performance outcomes, as previously discussed, IndEx spent large
portions of the funds under each contract when no, or few, participants were enrolled, and
when participants, on average, stayed in the program for a short time. The following schedule
shows the number of participants enrolled per month, the average days of enrollment per
month, and the cost to the WtW program per month.

                                                CONTRACT 1
                                                    Average                Cost
                    Month                  Number   Days                    to
                    Enrolled               Enrolled Enrolled               WtW
                    Dec 1998/Jan1999         0        0                   $ 18,827
                    Feb 1999                 8        8                     19,125
                    Mar 1999                 6       13                     18,426
                    Apr 1999                 8        7                     27,261
                    May 1999                 3       11                        979
                    Jun 1999                 2       10                     40,405
                    Jul 1999                 1       16                      3,398
                    Aug 1999                 3        9                        682
                    Sep 1999                 2       14                     20,898
                    Total To WtW                                         $ 150,0011



                                             CONTRACT 2
                                                 Average                   Cost
                    Month               Number   Days                       to
                    Enrolled            Enrolled Enrolled                  WtW
                    Apr 1999 – Sep 1999   0        0                      $ 43,760
                    Oct 1999              2       10                       24,107
                    Nov 1999              2       15                       30,395
                    Dec 1999              3       10                       41,982
                    Jan 2000              2       11                       33,590
                    Feb 2000              2        9                       27,812
                    Mar 2000              2        8                       22,947
                    Apr 2000              1       12                       16,407
                    May 2000              1       19                       20,709
                    Jun 2000              1        5                       23,251
                    Jul 2000 – Sep 2000   0        0                       59,867
                    Total To WtW                                         $ 344,827

The table for Contract 2 only covers April 1999 through September 2000 because IndEx spent
93 percent of the funds ($344,827) during this period while enrolling only three participants,
an average of $114,942 per participant.

IndEx spent the remaining $27,914 ($372,741 - $344,827) under this contract between
October 2000 and December 2000. The IndEx program incurred an additional $38,908 of
costs between December 2000 and June 2001 without the contract being modified to add the
additional funds. THA directly paid these additional IndEx program costs from another
1
    Difference between $150,001 in table and $150,000 contract amount is due to rounding.


                                                  13
$600,000 Governor’s WtW Discretionary grant THA received from OESC. THA intended to
pass this $600,000 down to IndEx but due to the controversy surrounding the program, THA
took over the program from IndEx and OESC later froze the funds pending completion of a
review by the Oklahoma State Auditor and Inspector’s office.

OMB Circular No. A-122 Attachment A, provides:

         (3.) Reasonable costs. A cost is reasonable if, in its nature or amount, it
             does not exceed that which would be incurred by a prudent person
             under the circumstances prevailing at the time the decision was made
             to incur the costs. . . . In determining the reasonableness of a given
             cost, consideration shall be given to: a. Whether the cost is of a type
             generally recognized as ordinary and necessary for the operation of
             the organization or the performance of the award. b. The restraints or
             requirements imposed by such factors as generally accepted sound
             business practices, arms length bargaining, Federal and State laws
             and regulations, and terms and conditions of the award.

--------------------------------------------------------------------------------------------------------------

IndEx provided work experience that offered little useful skills and resulted in dismal
performance outcomes. Because the participants were very few in number, received very
little training, stayed in the program a very short period of time on average, and received
dismal positive outcomes as a result of this training, we question the total $561,649 IndEx and
THA spent from their WtW funds.

THA’s Response to Our Draft Report and OIG’s Conclusions:

THA disagrees that IndEx provided inadequate training and services to only a few
participants resulting in dismal program outcomes. THA contends that the segment of
the population it served and the eligibility requirements imposed by the Federal
government made it difficult to recruit eligible clients. However, THA provided that
IndEx was deceptive by inflating its enrollment numbers as submitted on its monthly
program summaries. This deception led THA to believe, at the time, that the attendance
in the program was much higher than it actually was. While the eligibility criteria may
have been stringent, it does not change the fact that the outcomes of the program were
dismal. Also, THA acknowledged that IndEx was deceptive and inflated its enrollment
numbers.

THA agreed that many participants received no wages and received only their TANF
benefits, but THA contends that participants had a choice to receive wages or continue
with their TANF benefits. Contrary to THA’s assertion, all participants were not given a
choice of receiving wages or continuing to receive their TANF benefits. We interviewed
some participants and at least two said they were told that they had to participate in the
program in order to keep their TANF benefits; i.e., they were not given an option. By not
paying wages to participants, more money was available to IndEx.



                                                  14
THA stated that the IndEx program’s purpose was not to teach an actual job or an actual
job skill, but was to allow participants with little or no exposure to a work environment,
gain real work experience in a learning environment. The purpose of the program may
have been to give participants work experience in a learning environment, but several
participants already had extensive work experience. In fact some participants had years
of experience in IndEx’s work experience prior to enrolling into IndEx’s WtW program.

THA responded that IndEx, Inc., did not charge the WtW program $561,649 for the
period December 16, l998, to June 30, 2001; $38,908 of incurred costs were approved by
OESC to be paid by THA from the third grant of WtW funds of $600,000. The OIG
concurs that $38,908 was from a third grant THA received from OESC. However, these
funds were spent by THA on behalf of IndEx’s Contract 2 program. We also realize
THA had no contract for services with IndEx for the expenditure of these funds;
however, the funds were used for the same participants.

THA contends that the OIG’s finding that three participants were enrolled between
October 1999 and September 2000 is not reflective of any actual contract period, and
THA believes that the auditor selected this period, which reflects few participants, in
order to further emphasize the negativity of this report. The OIG realizes the period for
Contract 2 initially covered April 1999 through January 2001, but the fact remains that
IndEx enrolled no participants between April 1999 and August 1999 under this contract
and enrolled only three participants between October 1999 and September 2000. The
fact also remains that IndEx spent 93 percent of the funds between April 1999 and
September 2000 when only three participants were enrolled.

THA responded that OESC suspended the WtW funds on February 2, 2001, and would
not allow THA to recruit any additional participants. This action by OESC further
impeded the success of the WtW program and attributed to the higher cost per
participant. The OIG acknowledges that OESC suspended the WtW funds; however,
these funds were from a third grant THA received from OESC. After IndEx spent the
funds under Contract 2, THA continued spending on this program with funds from the
third grant without modifying the contract. The suspension of the third grant had no
bearing on the success of the program under review because the contract was not
modified to add the additional funding.

Finally, THA responded that while the draft report states IndEx spent the remaining
$27,914 under Contract 2 between October 2000 and December 2000, participants were
served for the remainder of the contract period to January 31, 2001. The OIG also
acknowledges that participants were served under Contract 2 through January 31, 2001.
We found that 32 participants were served between October 2000 and January 2001 for
approximately $40,190 ($12,277 of this from third grant). We question why IndEx spent
$344,827 to serve 3 participants when 32 were served for $40,190.

THA’s entire response is included at Appendix I to this report.




                                          15
3. IndEx did not come close to meeting either contract's performance goals.

The following tables show IndEx’s proposed deliverables as well as actual performance.

                                                   Contract 1     Actual
                                                   Deliverables   Performance
          Number of Participants                         120            24
          Employment Status at Termination:
            Unsubsidized Employment (UE)                 100            4
             Full Time                                    90            2
             Part Time                                    10            2
            Remain 6 months in UE                         50            2
            Other Terminations                            20           20



                                                   Contract 2     Actual
                                                   Deliverables   Performance
          Number of Participants                          50            35
          Employment Status at Termination:
            Unsubsidized Employment (UE)                  25            3
             Full Time                                    25            3
             Part Time                                     0            0
            Remain 6 months in UE                         25            1
            Other Terminations                             0           32



As the tables above show, IndEx’s performance was dismal. IndEx enrolled only 20
percent (24/120) of the number of participants intended under Contract 1, yet spent all
contract funds even though no funds were spent on participants’ wages; i.e., participants
received their TANF benefits only. While 70 percent (35/50) of Contract 2 goals for
enrollment were met, 91 percent (32 of 35) of the participants were not enrolled until 17
months of the contract had expired, and 93 percent of the contract funds had already been
spent on 9 percent of the participants.

Under Contract 1, only 4 percent (4/100) of the entered unsubsidized employment goal
was reached; under Contract 2, only 12 percent (3 of 25).

In our opinion, these dismal results support our position that IndEx was more concerned
with remaining solvent than in enrolling and adequately training WtW qualified
individuals.

THA’s Response to Our Draft Report and OIG’s Conclusions:

THA disagrees that IndEx did not meet its contract’s performance goals. THA contends
that IndEx met participation goals even though it was subject to stringent contracted and
regulatory eligibility requirements, while also striving to place as many participants as
possible in employment. THA concludes that if the auditors had considered the amended
performance goals, the auditors’ conclusions would have been different.



                                              16
The OIG disagrees. The OIG acknowledges that the figures on the program-planning
summary provided by THA in its response are different from those provided to us during
our review. We question why the date (June 24, 1999) of the program planning summary
provided to us during our review of Contract 1 matches the date on the summary
provided by THA in its response but the figures are considerably different.

The THA responded that on October 15,1998, it attended training at the OESC at which
time THA was asked to complete the program planning summary with an estimate of
how the money would be spent and an estimate of the number of participants to be served
and the number that would be placed in unsubsidized employment. The trainers stated
that this form could be revised at any time to show a more accurate picture of how the
money was being spent and who was participating in the program. THA indicated that
the Contract 1 program planning summary was revised on January 25, 1999, and
approved by OESC, and the Contract 2 program planning summary was revised on
November 13, 2000, and approved by OJA.

The Contract 1 documentation submitted with THA’s response was dated June 24, 1999,
not January 25, 1999, as THA stated. Consequently, the program-planning summary was
revised 3 months before the contract ended, and the enrollment numbers matched
enrollments. The Contract 2 program planning summary was revised when only $13,748
-- less that 4 percent of the contract funds -- remained in the contract.

The OIG questions why IndEx’s funds were not reduced when the estimated deliverables
were drastically reduced. In our opinion, IndEx revised its planned deliverables to
reflect its limited performance. Just because OESC approved the revised planning
summaries does not change the fact that IndEx’s performance was dismal.




                                        17
4. IndEx’s financial management system was inadequate to account for Federal grant
   funds.

   IndEx’s financial management system did not meet the financial management systems
   standards required for nonprofit organizations that administer Federal grant funds.
   Office of Management and Budget (OMB) Circular No. A-110 establishes uniform
   administrative requirements for Federal grants to nonprofit organizations. These
   requirements are codified at Title 29 CFR part 95.

   29 CFR, section 95.21(b), Standards for financial management systems provides:

           Recipients' financial management systems shall provide for the following:

           (1) Accurate, current and complete disclosure of the financial
               results of each federally-sponsored project or program in
               accordance with the reporting requirements. . . .
           (2) Records that identify adequately the source and application of
               funds for federally-sponsored activities. These records shall
               contain information pertaining to Federal awards,
               authorizations, obligations, unobligated balances, outlays,
               income and interest.
           (3) Effective control over and accountability for all funds, property
               and other assets. Recipients shall adequately safeguard all
               such assets and assure they are used solely for authorized
               purposes.
             .          .          .         .         .           .         .

           (6) Written procedures for determining the reasonableness,
               allocability and allowability of costs in accordance with the
               provisions of the applicable Federal cost principles and the
               terms and conditions of the award.
           (7) Accounting records including cost accounting records that are
               supported by source documentation.

   The inadequacy of IndEx’s financia l management system is exemplified by the following
   deficiencies:

       •   IndEx did not have a cost allocation system to ensure that costs were charged to
           the contracts only to the extent that the contracts benefited from the costs.

       •   IndEx charged unallowable costs, including precontract costs, to the contracts.

       •   IndEx charged costs to the contracts without documenting the costs.

       •   IndEx did not properly account for program income.




                                              18
    A. No cost allocation plan (CAP).

IndEx did not have a written CAP and did not use an adequate allocation method. The
following table shows examples of IndEx’s excessive and inconsistent charges to WtW as
a result of not having a written or adequate CAP. The table shows a sample of expenses
charged to WtW during December 1998 through July 1999 under Contract 1. IndEx
operated other programs at the time and should have shared the costs.

                                         Dec/Jan        Feb       Mar      Apr      May      Jun     Jul
Executive Director’s Salary 2            88%            60%       80%      80%      80%      8%      15%
Rent                                     46%            50%       50%      80%      80%      --- 3   ---3
Utilities                                100%           53%       53%      100%     --- 4    ---4    ---4
Supplies                                 100%           53%       53%      100%     100%     ---3    ---3

The amounts charged to the WtW program were not based on number of participants
enrolled or have a relationship to participant activity. IndEx stated that they expected the
WtW funds to be approximately 30 percent of all funds available, and they based their
allocation on this funding level. It appears IndEx’s allocation method was based on
funds available; however, it was not based on the 30 percent as they stated.

OMB Circular A-122 Attachment A 4. Allocable cost provides:

         a. A cost is allocable to a particular cost objective, such as a grant,
         contract . . . in accordance with the relative benefits received. A cost is
         allocable to a Federal award if it is treated consistently with other costs
         incurred for the same purposes in like circumstances and if it:

         (1) Is incurred specifically for the award.
         (2) Benefits both the award and other work and can be distributed in
         reasonable proportion to the benefits received . . .

WtW Financial Management TAG, Chapter 6, Cost Pools, Written CAP, provides the
following:

         The cost pool should be described and documented in a written CAP that
         is used in allocating all allocable direct costs within the WtW program to
         the appropriate program activity and cost category.

WtW Financial Management TAG, Chapter 6, Allocation Bases, provides the following:

         An allocation basis is acceptable if it represents a fair measure of cost
         generation or cost benefit, and if it results in an equitable distribution of
         the costs of services rendered or goods provided.


2
  IndEx also charged Contract 2 for the Executive Director’s salary in April through July.
3
  The expense was not charged to the WtW program under this contract for these months.
4
  IndEx did not list utilities as a category on their monthly invoice for this month.


                                                   19
IndEx also did not have a written CAP under Contract 2. The following table shows
examples of IndEx’s excessive and inconsistent costs charged to its WtW program. The
table shows a sample of expenses charged to WtW during April 1999 through
December 1999 and June 2000 through August 2000. IndEx accounted for line item
expenses differently under the two contracts. Therefore, the table shows examples of
expenses accounted for the same as in Contract 1.

                                       Apr       May    Nov     Dec    Jun     Jul    Aug
Executive Director’s Salary            8%        10%    100%    100%   70%     70%    60%
Rent                                   25%       25%    90%     90%    50%     55%    60%

The percentage of costs charged to the program was not based on number of participants
enrolled or have a relationship to participant activity. For example, IndEx had no
participants April 1999 through September 1999; however, IndEx allocated $43,760 to
the WtW program. They had two participants enrolled in November 1999 and three in
December 1999 and allocated $72,377 to the WtW program. IndEx allocated $60,367 to
WtW in April 2000 through June 2000 when it had one participant in the program.

IndEx told the OIG that its cost allocation was based on availability of funds. This
appears accurate for this contract because IndEx increased the percentages and amounts
they charged to WtW after THA modified the contract and increased IndEx’s funds. For
example, in September 1999 IndEx submitted an invoice for reimbursement totaling
$8,200. After THA modified the contract in December 1999, IndEx resubmitted
September’s invoice for an additional $10,121. IndEx submitted an invoice in October
1999 that totaled $3,130. After the modification, IndEx resubmitted the invoice for an
additional $20,977.

Since IndEx did not have a written CAP or acceptable allocation method, we could not
determine WtW’s allocable share of costs. However, we determined that the percentage
of costs charged to WtW was inconsistent and excessive since IndEx operated programs
other than WtW during this period. Since the OIG could not audit IndEx’s other
programs, we do not know how much IndEx allocated to these programs.

    B. Unallowable costs charged to the contracts.

Precontract costs -- IndEx allocated $2,022 to its WtW Contract 1 for costs incurred
before the December 16, 1998, start date. (See attachment 2.)

OMB Circular A-122 Attachment B, paragraph 38 states:

        Pre-award costs are . . . allowable only to the extent that they would have
        been allowable if incurred after the date of the award and only with the
        written approval of the awarding agency.

IndEx did not obtain written approval of the awarding agency to charge costs to the WtW
program prior to award of the contract. These costs were not allowable.



                                          20
Credits and refunds -- IndEx received $972 in credits and refunds against expenditures
charged to Contract 1 but did not reduce reported expenditures by this amount. These
costs are not allowable.

OMB Circular A-122 Attachment B, section 5 (a), Applicable credits, states:

       The term applicable credits refers to those receipts, or reduction of
       expenditures which operate to offset or reduce expense items that are
       allocable to awards as direct or indirect costs. Typical examples of such
       transactions are: purchase discounts, rebates or allowances, recoveries or
       indemnities on losses, insurance refunds, and adjustments of
       overpayments or erroneous charges. To the extent that such credits
       accruing or received by the organization relate to allowable cost, they
       shall be credited to the Federal Government either as a cost reduction or
       cash refund, as appropriate.

Duplicate payments -- IndEx received reimbursements under Contract 1 for expenses
they charged twice to the program.

IndEx initially charged the WtW program $701 -- based on a cost allocation -- for the
expenses, then charged the program $942 -- based on a different cost allocation -- for the
same expense. (See attachment 3.)

Because IndEx had no appropriate allocation plan, the amount allocable and allowable to
Contract 1 is unknown. However, in these cases, IndEx charged the WtW contract $1,643
($701 + $942), or 119 percent, of a singled billed item of $1,376.

OMB Circular No. A-122 Attachment A (3.) Reasonable costs, provides:

       A cost is reasonable if, in its nature or amount, it does not exceed that
       which would be incurred by a prudent person under the circumstances
       prevailing at the time the decision was made to incur the costs. . . . In
       determining the reasonableness of a given cost, consideration shall be
       given to: a. Whether the cost is of a type generally recognized as ordinary
       and necessary for the operation of the organization or the performance of
       the award. b. The restraints or requirements imposed by such factors as
       generally accepted sound business practices, arms length bargaining,
       Federal and State laws and regulations, and terms and conditions of the
       award.

Late payment fees -- IndEx charged $120 of late fees under Contract 1 and $494 under
Contract 2 to the WtW program. (See attachments 4 and 5.)

OMB Circular No. A-122 Attachment A (3.) Reasonable costs, provides:




                                          21
       A cost is reasonable if, in its nature or amount, it does not exceed that
       which would be incurred by a prudent person under the circumstances
       prevailing at the time the decision was made to incur the costs. . . . In
       determining the reasonableness of a given cost, consideration shall be
       given to: a. Whether the cost is of a type generally recognized as ordinary
       and necessary for the operation of the organization or the performance of
       the award. b. The restraints or requirements imposed by such factors as
       generally accepted sound business practices, arms length bargaining,
       Federal and State laws and regulations, and terms and conditions of the
       award.

Late payment fees do not constitute necessary and reasonable costs.

Charges for non-WtW participants – IndEx charged a total of $37,772 to its WtW
contracts for individuals who were not WtW participants.

   •   $116 in testing fees for individuals who were not WtW participants.

       o $80 under Contract 1 for GED testing.

       o $36 under Contract 2 for drug testing.

   •   $37,656 as wages and fringe benefits to both contracts for individuals who were
       not WtW participants.

       o Contract 1 -- $17,599 as participant wages and $4,224 as fringe benefits for 11
         individuals although only 1 of these individuals was ever a WtW participant
         and she was not enrolled under Contract 1.

       o Contract 2 -- $12,867 as participant wages and $2,966 as fringe benefits for
         seven individuals who were not WtW participants.

       According to an IndEx official, only staff received fringe benefits. Consequently,
       even if these individuals had been participants, they would not have received
       fringe benefits.

20 CFR Part 645.214 states:

       The operating entity . . . is accountable for ensuring that WtW funds are
       spent on individuals who are eligible for WtW projects.

Excess rent -- IndEx charged $896, or 80 percent of $1,120, to the WtW program under
Contract 1 for June 1999 rent. The documentation used to support the $1,120 rent
charge was an invoice prepared by IndEx, not the lessor.




                                         22
IndEx then charged Contract 2 $925, or 25 percent of $3,700, for July 1999 rent and an
equal amount for August 1999 rent. No invoice or other documentation (i.e., lease or
rental agreement) was available to support these two $3,700 monthly rental charges. In
addition, IndEx voided both $3,700 checks used to support these questionable rent
payments under Contract 2. IndEx neither provided evidence that they reissued the June
or July checks nor credited the $1,850 rent charges to Contract 2.

Repaid expenses -- IndEx charged $36,226 to the WtW program under Contract 2 for
technical assistance provided by THA based on THA invoice amounts, even though
IndEx only paid THA $30,984. IndEx never paid THA the $5,242 due on the THA’s la st
three invoices. Regardless, the entire $36,226 charge is unallowable because THA repaid
IndEx the entire $30,984. Consequently, IndEx did not incur this $36,226 expense. Yet,
IndEx did not credit this amount to the WtW program and no evidence exists to support
IndEx used the funds to benefit the WtW program.

Costs directly and indirectly charged to the program – Under Contract 1, IndEx
indirectly allocated $18,275 and directly allocated $3,976 for fringe benefits. Under
Contract 2, IndEx likewise indirectly allocated $45,279 and directly allocated $522.

Insurance on leased building -- On September 23, 1999, IndEx increased its Hartford
Insurance policy premiums by $5,495 to insure the leased building for $2 million. IndEx
increased the amounts charged to WtW after the policy increase. The OIG cannot
determine why IndEx insured a leased building. The following chart shows the insurance
amounts IndEx charged to WtW before and after the policy increase:

                                                Charged to   Charged to
                    Month Charged              WtW Before    WtW After
                    August 1999                    $ 28.23
                    September 1999                  197.60
                    November 1999                             $ 1,790.14
                    December 1999                               1,272.60
                    January 2000                                1,605.77
                    February 2000                               1,436.74
                    May 2000                                    2,084.58
                    June 2000                                     694.86
                    July 2000                                     694.86
                    August 2000                                 1,441.62
                    September 2000                                324.09
                    Total                         $ 225.83   $ 11,345.26

Since IndEx included personal property in the insurance premiums, we cannot determine
the amount attributable to the building. However, charges to WtW increased
substantially after IndEx insured the building.

   C. Inadequate documentation.

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A,
Paragraph A. 2.g, provides: To be allowable under an award, costs must . . . Be


                                          23
adequately documented. IndEx charged the following costs to its WtW contracts without
adequate documentation to justify reimbursements.

Employee Reimbursements -- IndEx charged WtW $1,341 for employee reimbursement
expenses without documentation to support the costs or how the costs benefited the WtW
program.

   •   $184 under Contract 1 to an employee in April 1999. The documents used to
       support the expense said “IndEx building repair – supply” but no record of the
       repair was provided.

   •   $222 under Contract 1 to a Tulsa Chamber of Commerce employee in May 1999.
       The documents used for support showed the expense was for travel to a Youth
       Build grant certification event. Youth Build is not a WtW program.

   •   $338 to one employee for various undocumented reimbursements:

       o $46 in March 1999 for mileage, but no documentation was attached to the
         receipt to show the destination of the travel or how the travel benefited the
         WtW program.

       o $187 for gas receipts where he claimed to transport individuals between
         Okmulgee -- where he lived-- and Tulsa. No WtW participants resided in
         Okmulgee, and IndEx kept no records to identify the participants transported
         in the van driven by the employee. The OIG cannot determine if those
         transported were WtW participants or if any participants were, in fact,
         transported.

       o $105 in August and September 1999 for gas; however, there were no
         participants in the program during these months.

   •   In April 1999, IndEx charged the WtW program $188 under Contract 2 for their
       President’s salary. IndEx’s President was an employee of the Tulsa Chamber of
       Commerce. In addition IndEx charged the WtW program $208 for the salary of
       another individual who was employed by the Tulsa Chamber of Commerce.
       IndEx did not provide documents that showed the WtW program benefited from
       these individuals.

   •   In October 1999 and March 2000, IndEx charged WtW $42 and $159,
       respectively, for their President’s wireless phone. IndEx did not document how
       the WtW program benefited from these expenses.

Rental Reimbursements -- IndEx charged the WtW program $10,780 under Contract 1
for payments to Keystone Aviation for rent with no rental contract. IndEx created the
only documentation to support the rent payments. Also, IndEx charged the WtW
program $1,850 under Contract 2 for payments to Keystone Aviation, yet both checks to


                                         24
support the rental charges were voided with no evidence that they were reissued or that
the costs were credited to the program.

Vendor Expenses -- IndEx charged the WtW program $1,733 under Contract 1 for
expenses incurred with Sarge’s Manufacturing and did not adequately document the
expenses to justify reimbursement.

Sarge’s Manufacturing was one of the companies that contracted with IndEx for services.
According to Sarge’s owner -- the wife of an IndEx employee -- the company paid IndEx
to make welding helmets.

However, IndEx charged WtW for payments made to Sarge’s Manufacturing, supposedly
for “Security” which was noted on the invoices submitted by Sarge’s for payment.
However, IndEx had no written contract for security services.

Sarge’s initial invoice for payment showed $50 per month in November and December
1998. Then, Sarge’s started submitting payment invoices for $550 per month in February
1999. The OIG cannot determine the actual purpose of the payments or why the rates
drastically increased.

General Expenses – IndEx reported general type expenses of $4,879 for 27 different
transactions for which there was no documentation to support the payments, including no
cancelled checks for 20 of the 27 transactions. (See attachment 6.)

   •   Under Contract 1, IndEx reported expenses of $1,236 for five transactions where
       the only documentation was a check stub with a vendor name.

   •   Under Contract 2, IndEx reported expenses of $3,643 for 22 transactions for
       which 20 transactions had no cancelled check or other documents to justify the
       charges and 2 other transactions with cancelled checks but no other documents to
       justify the charges.

Participant Supportive Service Expenses – In March 1999 and April 1999, IndEx
charged Contract 1 expenses totaling $200 for GED testing but did not identify who took
the GED. Therefore, the OIG could not determine if the expenses were for valid WtW
participants.

Voided or Missing Checks -- IndEx charged the WtW program for $5,040 of expenses
with no evidence to support that the expenses were paid.

   •   IndEx’s April 1999 documents (Contract 1) included several receipts that totaled
       $554. IndEx wrote check number 4043 to its Executive Director as
       reimbursement for those expenses and charged (allocated) $406 of the expenses to
       the WtW program. IndEx later voided the check written to the Executive Director
       and provided no documents to support that it incurred these expenses or that these




                                         25
        expenses benefited the WtW program. IndEx also did not credit the charges
        against its WtW contract when the check was voided.

    •   IndEx charged the WtW program $6 for a portion of the cost on a Home Depot
        receipt dated February 24, 1999, but there was no evidence, such as a canceled
        check, to show that IndEx paid for the expense.

    •   IndEx charged Contract 2 for $4,628 of expenses then voided the checks that it
        submitted as proof of payment for these expenses. (See attachment 7.)

Transportation Expenses – IndEx charged the WtW program $12,181 for transportation
expenses and deducted $315 from WtW and non-WtW participants’ salaries for
transportation expenses. Also see Employee Reimbursements above for additional
transportation expenses.

    •   IndEx charged the WtW program $3,276 under Contract 1 for transportation
        expenses but did not have a list of who received the transportation. Also, as
        shown in the table below, no, or few, participants were in the program at the time
        these expenses were incurred.

Month              Month      Participants          Total     Percentage        Amount
Expense           Expense          In               Bill      Charged to       Charged to
Billed            Incurred      Program           Amount        WtW               WtW
Feb 1999          Nov 1998     No contract        $ 52.50        80%            $ 42.00
                  Dec 1998          0              1034.04       80%              827.23
May 1999          Dec 1998          0                 3.95      100%                3.95
                  Jan 1999          0               815.48      100%              815.48
                  Feb 1999          9               237.94      100%              237.94
                  Mar 1999          6              1126.30      100%             1126.30
                  Mar 1999          6               223.02      100%              223.02

Total Transportation Costs                                                      $3,275.92



    •   In addition to the above expenses, IndEx charged WtW $344.60 for bus passes and
        tokens bought from the Tulsa Transit Authority but did not document who received
        the passes. The bus passes cost $6 each and the OIG cannot determine why the
        amount charged to WtW does not allow for an equal number of bus passes; i.e.,
        $344.60 pays for 57.43 bus passes. IndEx deducted $21 in $3 and $6 increments for
        bus passes from non-WtW participants it paid with WtW funds. The OIG could not
        determine why IndEx deducted amounts for bus passes from these individuals’ salaries
        when they charged the WtW program for transportation.

    •   IndEx charged the WtW program $8,560 under Contract 2 for transportation but
        did not document who received the transportation. Of these costs, IndEx charged
        its WtW contracts $3,334 each month in June 2000 and July 2000, a total of
        $6,668, without support. What makes these June and July charges so suspicious
        and certainly calls into question their allocability and allowability is:


                                             26
       o Only one WtW participant (for 5 days of enrollment) was served in June 2000,
         and no WtW participants were enrolled in July 2000.

       o The WtW June payment of $3,334 shows the payment is for invoice 1692.
         The backup documentation to support this payment lists several invoices,
         including invoice 1692 for $3,777.55. The WtW July payment of $3,334
         shows the payment is for invoice MTT2215. The support to back up the July
         payment was a copy of the same document used to back up the June payment;
         no invoice MTT2215 is listed on the support.

   •   In addition to charging the WtW program for inadequately documented
       transportation costs, IndEx deducted $246 for transportation expenses from WtW
       participants’ salaries and $48 from non-WtW participants’ salaries. IndEx paid
       the WtW participants only minimum wage ($5.15 per hour). Therefore, the OIG
       cannot determine why IndEx deducted transportation expenses from their salaries.
       Also, the OIG cannot determine why IndEx deducted transportation fees from
       participants’ salaries when it charged the WtW program for transportation
       expenses.

Salary Expenses – IndEx charged its WtW contracts $274,656 for employees’ salaries
and fringe benefits as follows without documented time and attendance records:

   •   Contract 1-- salaries, $58,552; fringe benefits $18,275
   •   Contract 2-- salaries, $152,548; fringe benefits, $45,279

OMB Circular A-122 Attachment B, paragraph 7 states:

       m. Support of salaries and wages.
       (1) Charges to awards for salaries and wages, whether treated as direct
       costs or indirect costs, will be based on documented payrolls approved by
       a responsible official(s) of the organization. The distribution of salaries
       and wages to awards must be supported by personnel activity reports . . .
       except when a substitute system has been approved by the cognizant
       agency.

As a result of not having documented time and attendance records or an approved
substitute system, the OIG could not determine WtW’s allowable share of the expenses.

Program Income -- IndEx earned $38,620 of program income under Contract 1 and
$111,221 under Contract 2 but called it matching funds. IndEx had several contracts in
place to assemble and package products for vendors such as Whirlpool and Hilti and used
WtW participants as well as non-WtW participants to provide the labor under these
contracts. The suppliers paid IndEx for each item produced. Many (41 percent) WtW
participants were not paid for their labor, instead, they continued receiving their TANF
benefits. Furthermore, some non-WtW participants were paid with WtW funds. IndEx


                                          27
considered the labor as work experience and called the income generated from the
production matching funds.

29 CFR Part 95.2, Definitions, provides:

         (j) Costs sharing or matching means that portion of project or program
         costs not borne by DOL.
         .          .         .          .       .         .          .
         (bb) Program income means gross income earned by the recipient that is
         directly generated by a supported activity or earned as a result of the
         award. . . . Program income includes, but is not limited to, income from
         fees for services performed. . . .

29 CFR Part 95.24 provides:

         (a) . . . program income earned during the project period shall be retained
         by the recipient and added to funds committed to the project by DOL and
         the recipient, and used to further eligible project or program objectives.

We cannot determine the total amount of program income actually earned by IndEx
because documents used to support the income were inadequate. We requested copies of
the contracts between IndEx and its vendors but IndEx never provided the contracts. We
found no records showing that IndEx added the income to its WtW funds or that the
income was used to further eligible program objectives.

----------------------------------------------------------------------------------------------------------

Of the Governor’s WtW Discretionary OESC granted to THA, THA passed all but
$19,500 down to IndEx. THA retained the $19,500 to oversee IndEx’s WtW program
under Contract 1. Oversight included, among other things, reviewing and approving
vouchers for payment. Obviously, THA provided poor oversight of IndEx’s WtW
program as evidenced by IndEx’s mismanagement of their program.

29 CFR Part 95.47 states:

         A system for contract administration shall be maintained to ensure
         contractor conformance with the terms, conditions and specifications of
         the contract and to ensure adequate and timely follow up of all purchases.
         Recipients shall evaluate contractor performance and document, as
         appropriate, whether contractors have met the terms, conditions and
         specifications of the contract.

As a result of IndEx’s lack of experience and THA’s poor oversight, THA reimbursed
IndEx for costs that were not allowable, allocable, reasonable, or adequately documented.




                                                  28
We question the $561,649 that IndEx and THA received from WtW because IndEx
mismanaged its WtW program and THA provided poor oversight that attributed to
IndEx’s mismanagement. Also, we question the funds because IndEx provided
inadequate training that resulted in dismal outcomes and because THA did not properly
procure IndEx’s services. (See attachment 8 for a schedule of questioned costs.)

THA’s Response to Our Draft Report and OIG’s Conclusions:

THA disagrees that it entered into a subcontract agreement with an entity unable to
handle the administrative responsibility of a federal grant. THA stated that it trusted the
financial management abilities of the IndEx organization because of its business
affiliation with the Tulsa Chamber of Commerce. Furthermore, THA disagreed that it
provided poor oversight to IndEx.

THA acknowledges that IndEx made many mistakes in accounting for various
expenditures; however, THA considers IndEx’s financial management systems were
acceptable. THA stated that IndEx made many accounting errors in the simple
“accounting” for various expenditures. THA also stated that some errors were made in
monitoring of monthly invoices but it took immediate steps to improve its monitoring of
the IndEx program. In our opinion, THA’s agreement to many issues in this finding does
not support its statements.

For example, IndEx agreed that precontract costs, duplicate payments, late payment fees,
excess rent, payments to non-WtW participants, etc., were charged to WtW. In our
opinion, these are not accounting errors in the simple “accounting” for expenditures. If
THA was providing adequate oversight, why were these unallowable costs approved and
why was THA unaware of checks voided by IndEx? Also, if IndEx’s financial
management system was adequate, why did IndEx charge unallowable costs to the WtW
program and why did it void checks after THA reimbursed it for payment of the
expenses?

THA stated that in January 2001, THA’s accounting staff assisted IndEx in closing out
their calendar year 2000 financials. It was at that time that THA became aware of
weaknesses in the IndEx financial system and software. THA then recommended that
IndEx purchase and utilize software called “Peachtree 2000” which they implemented in
February 2001. This THA assistance in January 2001 was after IndEx had spent all WtW
funds in Contracts 1 and 2.

THA disagreed with some of the specific issues in this finding. We reviewed THA’s
response but found no justification to change the finding or recommendations.

THA’s entire response is included in this report at Appendix I.




                                           29
                   CONCLUSION AND RECOMMENDATIONS


Conclusion

THA selected IndEx as a service provider without following required procurement
procedures and provided poor oversight of its contracts with IndEx which attributed to
IndEx’s waste, abuse, and mismanagement of WtW funds. IndEx provided questionable
training through its work experience program that resulted in dismal performance
outcomes. IndEx failed to come close to meeting its contract performance goals and it
mismanaged, wasted, and abused WtW funds. As a result of these issues, the OIG
questions the entire $561,649 IndEx charged to the WtW program.

Recommendations:

We recommend the Assistant Secretary for Employment and Training:

   •   Disallow questionable costs of $561,649 for IndEx’s dismal performance
       outcomes and its mismanagement, waste, and abuse of WtW funds and for THA’s
       procurement of services from IndEx without competition.

Furthermore, we recommend the Assistant Secretary direct the State to ensure:

   •   Contractors and subcontractors adhere to Federal and State regulations in
       procuring services from providers.

   •   Service providers use an appropriate method of allocating costs.

   •   Service providers maintain adequate documentation to support allocation of costs
       to WtW programs.

   •   Service providers maintain an adequate time distribution system that reflects the
       actual activity of employees.

   •   Service providers properly account for program income.




                                         30
                                                                       ATTACHMENT 1



                              PARTICIPANT SYNOPSES


13A
A 43-year-old female with a GED, entered the IndEx program in March 1999 as an IndEx
participant funded under the THA (Contract 1) WtW grant. The Department of Human
Services (DHS) referred her for Adult Basic Education (ABE) classes even though she
had a GED.

Although DHS referred this participant to IndEx for basic skills only, she was not
enrolled in basic skills classes. Instead IndEx assigned her to a work experience activity
performing unskilled assembly work at a minimal wage. She also attended computer
orientation classes for a short period of time.

In June 1999, this participant was reported as entered unsubsidized employment with a
firm under contract with IndEx. However, she continued to work full time at a minimal
wage for IndEx performing the same type unskilled assembly work she had been
performing under the WtW grant.

In January 2000, IndEx enrolled this same participant under the OJA (Contract 2) WtW
grant and assigned her to a work experience activity performing unskilled assembly work
at $7 per hour. She continued working full time for IndEx under this WtW grant through
July 2000 just as she had been doing since June 1999 when she was reported as placed
into unsubsidized employment under the THA WtW grant. At this point, she quit or was
terminated from the IndEx OJA WtW grant and departed IndEx.

07B
A 24-year-old female with a GED began the IndEx program in March 1999 performing
unskilled assembly type work for IndEx at a minimum hourly wage. She worked through
the third quarter of 1999 working approximately 423 hours prior to leaving.

On February 15, 2000, the participant returned to IndEx picking up where she left off.
She continued working a minimum hourly wage at IndEx until June 19, 2000, before
going out on pregnancy leave. During her second stint at IndEx she added another 524
hours of additional assembly type work experience to her credit.

The participant then returned once more to IndEx during the third quarter of the year
2000 putting in an additional 84 hours at a minimum wage. On October 6, 2000,




                                          31
                                                                      ATTACHMENT 1

after more than 1000 hours of this type work experience, IndEx determined her eligible
for the WtW grant and she became a WtW participant enrolled in a work experience
training activity performing unskilled assembly type labor for IndEx at $5.40 per hour
under the WtW grant. This was the same unskilled assembly work she had been
performing on and off at IndEx since March 1999.

In January 2001 the participant’s salary was increased to $7 per hour, and she continued
working at IndEx through part of the second quarter of 2001.

21B
A 23-year-old female high school graduate with an Associates degree from a local
Community College entered the IndEx program in October 2000 as an IndEx participant
funded by the WtW grant. She was referred to IndEx by THA where she had procured
her housing.

Even though this participant had 2 years of college and scored very high on the TABE
(grade equivalence) test, she was put in a GED class for 2 weeks with no class
instruction, only some basic skill books to read. She also attended computer classes
under the same set of circumstances even though she was already computer literate.
Finally, she worked 4 hours a day in a work experience activity performing unskilled
assembly work at $5.15 per hour despite the fact she had at least 6 months prior work
experie nce with a telemarketing firm and other work experience as a home health care
aide, waitress, etc.

This participant was interviewed. She indicated she learned nothing at IndEx and could
not imagine how anyone else could either. Additionally, she did not know of anyone
participating in the IndEx program that was placed into unsubsidized employment even
though the IndEx officials would always promise the participants a job but would never
help anyone find one.

Fed up, she began looking for a job on her own, found a full-time clerical job with a
nonprofit organization in February 2001 earning $8 per hour, and notified IndEx she was
quitting the program.

26B
A 19-year-old female school dropout was determined eligible for the WtW grant in
December 2000. Although she was pregnant, making less than poverty wages, she was
not a custodial parent at the time.




                                         32
                                                                     ATTACHMENT 1

The participant was enrolled under the WtW grant in a work experience program at IndEx
performing part-time unskilled assembly work at $5.15 per hour until going out on
maternity leave in March 2001. She returned to IndEx in early April 2001 after
delivering a baby boy and dropped out of the program.

32B
A 40-year-old female high school graduate entered the IndEx program on July 17, 1997.
She was an AFDC recipient referred to IndEx as part of the Job Opportunities and Basic
Skills Training Programs. She was assigned to a work experience program conducted by
IndEx consisting of unskilled assembly type work.

In August 1997 the participant was promoted to a Trainer in charge of other IndEx work
experience trainees. By February 1998 she was promoted to Floor Supervisor in charge
of trainers and trainees. She performed this function continuously for IndEx through the
third quarter of the year 2000 working approximately 32 hours a week at $5.40 per hour.

In the Fall of 2000 THA referred the participant for enrollment under the WtW training
grant as a participant. She was determined eligible for the WtW grant on October 6, 2000
and was enrolled under the WtW grant in a work experience activity at IndEx performing
unskilled assembly type work at $5.40 per hour. This is the same type of activity she had
been continuously performing for IndEx since 1997.

In February 2001, the participant was terminated from the IndEx WtW grant and reported
as entering unsubsidized employment with a manufacturing firm at $6.50 per hour.




                                         33
                                                           ATTACHMENT 2

                PRE-CONTRACT COSTS FOR CONTRACT 1

                           Month     Month    Total   Percentage Amount
      Invoice Payee       Expense Expense      Bill   Charged to Charged to
                          Incurred Billed   Amount      WtW         WtW
Sand Springs Home        Nov      Dec/Jan $1,713.04      46%     $ 788.00
City of Tulsa            Nov      Dec/Jan    235.43      35%        82.00
Logix Communications Nov          Dec/Jan    325.57      50%       160.00
Sarge's Manufacturing    Nov      Dec/Jan     50.00      50%        25.00
Oklahoma Natural Gas     Nov/Dec Dec/Jan     148.70      50%        74.35
Oklahoma Natural Gas     Nov/Dec Dec/Jan     290.85      50%       145.43
Indian Lock & Safe       Nov      Dec/Jan     54.50      50%        27.00
Hartford                 Nov/Dec Dec/Jan     281.49      70%       197.04
AmeriGas                 Nov/Dec Dec/Jan     133.71      50%        66.00
Tulsa County Treasurer Yr. 1998 Dec/Jan      198.00      50%       100.00
Xerox Corp               Oct      Feb        352.89      53%       187.03
Indian Lock & Safe       Nov      Feb         54.50      53%        28.89
Oklahoma Natural Gas     Nov/Dec Feb         148.70      53%        78.81
AmeriGas                 Dec      Feb         38.82      53%        20.57
Tulsa Transit            Nov      Feb         52.50      80%        42.00
         Total Pre-Contract Expenses                              $2,022.12




                                   34
                                                                                 ATTACHMENT 3

                              DUPLICATE PAYMENTS FOR CONTRACT 1

                  Initial    Percentage   Initial      Initial    Duplicate   Percentage   Duplicate   Duplicate
                  Amount     Charged      Charge       Month      Amount      Charged      Charge      Month
Payee             Billed     To WtW       To WtW       Charged    Billed      To WtW       To WtW      Charged
American Waste   $ 1.81       53%         $ 0.96       Feb
American Waste                                                   $     1.81    53%         $ 0.96        Mar
Indian Lock &                                          Dec/Jan
Safe               54.50      50%             27.00
Indian Lock &
Safe                                                                  54.50    53%           28.89        Feb
City of Tulsa     276.71      50%            138.00    Dec/Jan
City of Tulsa                                                        276.71    53%          146.66        Feb
Oklahoma
Natural Gas
(ONG)             148.70      50%             74.35    Dec/Jan
ONG                                                                  148.70    53%           78.81        Feb
ONG               441.33      50%            220.67    Dec/Jan
ONG                                                                  441.33    53%          233.90        Feb
AmeriGas          307.60      53%            163.03    Feb
AmeriGas                                                             307.60   100%          307.60        Apr
AmeriGas          145.59      53%             77.16    Mar

AmeriGas                                                          145.59      100%          145.59        Apr
   Totals        $1,376.24                $ 701.17               $1,376.24                 $ 942.41




                                                      35
                                                       ATTACHMENT 4

           LATE PAYMENT FEES FOR CONTRACT 1

Month WtW                                Total Late Percentage Late Fees
Charged         Invoice Payee               Fees     Charged Charged
Apr 99          American Waste Control     $ 0.03     100%     $ 0.03
Mar 99          American Waste Control         0.03    53%         0.02
Feb 99          Logix Communications           4.88    53%         2.59
Mar 99          Logix Communications           5.13    53%         2.72
Apr 99          Logix Communications         10.23    100%       10.23
May 99          Logix Communications          5.59    100%         5.59
Dec 98/Jan99    Oklahoma Natural Gas          2.23     50%         1.12
Dec 98/Jan 99   Oklahoma Natural Gas          4.36     50%         2.18
Feb 99          Oklahoma Natural Gas          8.85     53%         4.69
Mar 99          Oklahoma Natural Gas          6.81     53%         3.61
Apr 99          Oklahoma Natural Gas          5.56    100%         5.56
May 99          Oklahoma Natural Gas          9.81    100%         9.81
Dec 98/Jan 99   Sand Springs Home          155.75      23%        71.65
                         Totals           $219.26               $119.80




                             36
                                                      ATTACHMENT 5

             LATE PAYMENT FEES FOR CONTRACT 2

Invoice                             Total Late   Percent   Late Fee
                 Description
Month                                  Fee       to WtW    to WtW
 Jul-99   American Waste                $1.75      20%         $0.35
 Jul-99   Logix Comm.                   5.33       64%          3.41
Aug-99    PSO                           10.18      88%          8.96
Sep-99    American Waste                  1.78     50%          0.89
Sep-99    PSO                           20.11      30%          6.03
Nov-99    American Waste                  4.95     95%          4.70
Dec-99    American Waste                  4.95     93%          4.60
Dec-99    PSO                           23.90      89%         21.27
 Jan-00   American Waste                  4.95     93%          4.60
 Jan-00   PSO                           49.28      88%         43.37
Feb-00    ONG                           61.99      93%         57.65
Feb-00    PSO                           26.21      80%         20.97
Mar-00    American Waste                  4.13     93%          3.84
Mar-00    Dolphin Capital               50.00      58%         29.00
Mar-00    ONG                           45.97      95%         43.67
Apr-00    American Waste                  3.68     79%          2.91
Apr-00    Dolphin Capital               25.00      42%         10.50
Apr-00    ONG                           89.13      51%         45.46
Apr-00    PSO                           24.95      54%         13.47
May-00    American Waste                  7.35     76%          5.59
May-00    Dolphin Capital               25.00      42%         10.50
May-00    ONG                           62.80      42%         26.38
May-00    PSO                           25.34      54%         13.68
Jun-00    American Waste                14.70      65%          9.56
Jun-00    Dolphin Capital               25.00      42%         10.50
Jun-00    ONG                           27.47      36%          9.89
Jun-00    PSO                           25.24      55%         13.88
 Jul-00   American Waste                14.98      51%          7.64
Aug-00    ONG                           90.00      45%         40.50
Sep-00    ONG                           91.65      16%         14.66
Oct-00    American Waste                  3.49     10%          0.35
Oct-00    PSO                           37.35      15%          5.60
          Total                      $908.61                 $494.38




                               37
                                                                     ATTACHMENT 6

               INADEQUATE DOCUMENTATION FOR CONTRACT 1

Invoice                                        Check       Check        Charged
                    Description
Month                                            No.      Amount        to WtW
Feb-99    Quality K Tire                        3926      $ 437.86     $ 218.93
Apr-99    Humana                                4018      1,739.62       869.81
Apr-99    Tulsa Transit                      4021,4027      120.00        90.00
May-99    U.S. Postmaster                       4060         33.00        16.50
May-99    IndEx Employee                        4046         75.82        40.74
          Total                                          $2,406.30    $1,235.98

               INADEQUATE DOCUMENTATION FOR CONTRACT 2

Invoice                                       Check    Check           Charged
                    Description
Month                                           No.   Amount           to WtW
Nov-99    Southwestern Bell                     No       No            $ 1,703.86
Nov-99    Southwestern Bell Internet           4340 $ 55.92                 53.12
Dec-99    Tom Gorman Co.                        No       No                 16.96
 Jan-00   Edit Suite                            No       No                 23.75
 Jan-00   Ellis, Duane                          No       No                202.50
Feb-00    First Light of Tulsa                  No       No                 39.12
Mar-00    Rent Adj overpaid                     No       No                 75.00
Apr-00    Rapidforms                            No       No                 48.43
May-00    Czech, Lisa (Supplies)                No       No                 26.49
May-00    THA Residence Bonuses                 No       No                 12.50
Jun-00    THA Residence Bonuses                 No       No                 12.50
Jun-00    Townsend                             4673    441.05               45.97
 Jul-00   Hartford/ Insurance                   No       No                694.86
Aug-00    City of Tulsa                         No       No                320.86
Sep-00    Supplies                              No       No                  8.95
Sep-00    Murphy Electric Co.                   No       No                 55.59
Sep-00    Tulsa Auto Collection                 No       No                  9.31
Sep-00    Kinko's                               No       No                 49.15
Nov-00    American Waste                        No       No                121.80
Nov-00    AT&T                                  No       No                  2.43
Nov-00    Ayres, Roger (Supplies)               No       No                 84.15
Nov-00    Southwestern Bell Telephone           No       No                 36.01
          Total                                                         $3,643.31




                                        38
                                                        ATTACHMENT 7

                  VOIDED OR MISSING CHECKS FOR CONTRACT 2

                                             Check     Check     Charged to
Invoice                   Description
                                               No.    Amount        WtW
Jun-99    Rent                                4133   $3,700.00   $ 925.00
Jul-99    Rent                                4180    3,700.00      925.00
Jul-99    Logix Communications                4155      729.27      218.78
Aug-99    Logix Communications                4210      380.66      114.20
Aug-99    Xerox Corporation                   4205      101.44       24.33
Aug-99    Xerox Corporation                   4214       97.30       35.50
Sep-99    Southwestern Bell Telephone         4249    2,111.88    1,478.32
Oct-99    Southwestern Bell Telephone         4290      846.20      507.71
Nov-99    Rapidforms                          4334       52.88       50.24
Dec-99    Southwestern Bell Telephone         4382       27.76       24.98
Oct-00    ONG                                 4936      144.69        5.25
Oct-00    PSO                                 4937    2,159.83      318.37

          Total                                                  $4,627.68




                                        39
                                                                                     ATTACHMENT 8

                             SCHEDULE OF QUESTIONED COSTS

                      Contract 1                                          $150,0005
                      Contract 2                                           372,741
                      Grant between THA and OESC                            38,9086
                      Total                                               $561,649




5
  Of the $150,000, IndEx received $130,500 and THA kept $19,500 to oversee IndEx’s WtW program. We
are questioning THA’s portion in addition to IndEx’s portion because THA’s poor oversight attributed to
the waste and mismanagement of WtW funds received by IndEx.
6
  THA received a $600,000 grant from OESC and used part of the funds for IndEx’s work experience
program under Contract 2. We are questioning these funds because of IndEx’s poor performance and
mismanagement of funds.


                                                40
                                                       APPENDIX I




     RESPONSES TO DRAFT AUDIT REPORT


Tulsa Housing Authority (Page 42 )

Oklahoma Employment Security Commission (Page 94 )


Note: The Tulsa Housing Authority’s (THA) response to the draft audit
report was voluminous. We have included the THA’s narrative response in
its entirety in this report. Attachments to the THA’s response are in the
Dallas Regional Audit Office and are available for review upon request.




                                  41
42
Housing Authority of the City of Tulsa
Response to
               Office of the Inspector General
Draft Report




               Submitted March 2002




                               43
Housing Authority of the City of Tulsa
Response to
Office of the Inspector General
Draft Report

                                  Table of Contents

ExecutiveSummary…………………………………………………………………....4

Background……………………………………………………………………………..8

Finding #1………………………………………………………….………………..…13
Response: IndEx, a nationally acclaimed business model sponsored by the Tulsa
Metropolitan Chamber of Commerce, was selected as a “sole source” provider in accordance
with established procurement procedures.

Finding #2…………………………………………………………………………...…18
Response: Supervision of the IndEx Program by the Tulsa Housing Authority was
commensurate with the responsibilities for administering the Program accepted by IndEx and
its Board of Directors, which consisted of established, capable, and prominent leaders in the
Tulsa business and social service communities.

Finding #3…………………………………………………………………………...…32
Response: IndEx met participation goals even though it was subject to stringent contracted
and regulatory eligibility requirements, while also striving to place as many participants as
possible in employment. If the auditors had considered the amended performance goals, such
conclusions reached by the auditors would have been different.

Finding #4…………………………………………………………………………...…37
Response: THA appropriately placed trust and confidence in the financial, management, and
abilities of the IndEx organization because of its business affiliation with the Tulsa Chamber
of Commerce and its Officers and Board.

Conclusion………………………………………………………………………..…...50



                                   List of Attachments

A-     Weddle Affidavit
       Letter of Understanding from the Oklahoma Office of Juvenile Affairs
       Hancock Affidavit

B-     Contract between Oklahoma Employment Security Commission and the
       Tulsa Housing Authority



                                          44
C-   Service Agreement between Industrial Exchange, Inc. (IndEx) and the
     Tulsa Housing Authority

D-   Oklahoma Employment Security Commission Monitoring Review dated
     June 30, 2000

E-   Tulsa Housing Authority response to June 30, 2000 Monitoring Review

F-   Follow-up response from Oklahoma Employment Security Commission to
     June 30, 2000 Monitoring Review

G-   National Recognition of the IndEx Program

H-   Revised Welfare to Work Program Planning Summaries dated June 24,
     1999 and November 13, 2000

I-   Tulsa Metro Chamber Annual Report 2001

J-   Local Recognition of the IndEx Program

K-   Manpower Demonstration Research Corporation report on Tulsa’s IndEx
     Program

L-   Welfare to Work contract between Tulsa Housing Authority and IndEx

M-   Notice of Termination of Welfare to Work Contract between Oklahoma
     Employment Security Commission and Tulsa Housing Authority

N-   THA Staff E:mails

O-   Approval of Modification to Welfare to Work grant by Office of Juvenile
     Affairs dated December 19, 1999 retroactive to September 1, 1999

P-   Letter from Tulsa Housing Authority Grant Administrator to IndEx
     Executive Director

Q-   Memo from IndEx Executive Director to THA Controller

R-   In-Kind Report from IndEx to Oklahoma Employment Security
     Commission dated July 16, 2000




EXECUTIVE SUMMARY



                                    45
The Housing Authority of the City of Tulsa (THA) is a nationally recognized High
Performing Housing Authority in accordance with the performance requirements
set forth by the U.S. Department of Housing and Urban Development (HUD).
THA disagrees with the Auditor’s report and many of its findings regarding the
Tulsa Housing Authority and Industrial Exchange, Inc. (IndEx). It is apparent
from the wording of the draft report the Office of Inspector General (O.I.G.)
auditors have chosen to condemn a federally mandated program, Welfare to
Work, which is the subject of this report and are attempting to hold THA
responsible. The following is a brief summary of our position regarding the
issues raised by the Auditor’s Report:

Finding #1
Response: IndEx, a nationally acclaimed business model sponsored by the Tulsa
Metropolitan Chamber of Commerce, was selected as a “sole source” provider in
accordance with established procurement procedures.

Finding #2
Response: Supervision of the IndEx Program by the Tulsa Housing Authority was
commensurate with the responsibilities for administering the Program accepted by IndEx and
its Board of Directors, which consisted of established, capable, and prominent leaders in the
Tulsa business and social service communities.

Finding #3
Response: IndEx met participation goals even though it was subject to stringent contracted
and regulatory eligibility requirements, while also striving to place as many participants as
possible in employment. If the auditors had considered the amended performance goals, such
conclusions reached by the auditors would have been different.

Finding #4
Response: THA appropriately placed trust and confidence in the financial,
management, and abilities of the IndEx organization because of its business
affiliation with the Tulsa Chamber of Commerce and its Officers and Board.

THA strongly disagrees with the auditor’s conclusion that because of “THA’s
poor oversight of its contract with IndEx attributed to IndEx’s waste, abuse and
mismanagement of Welfare to Work (WtW) funds.” The recommendation that
$561,649 be considered as disallowed questionable costs for IndEx’s
performance outcomes shows a considerable lack of understanding about the
WtW program and in particular the participants of the program who represent the


                                         46
most disadvantaged and the hardest to employ members of society. The report
is in the nature of a political statement about the program, as well as an attempt
to sensationalize its own findings.

Tulsa Housing Authority did not competitively select IndEx as a service provider.
THA’s first notice of the availability of WtW funds came from a telephone
conversation with Mr. Wayne Rowley, President of IndEx and the Director of
Workforce Development for the Tulsa Chamber of Commerce. Mr. Rowley
informed the Executive Director of THA that the Governor desired to send part of
his 15% Welfare to Work (WtW) discretionary funds to IndEx. It was also the
understanding of THA staff based upon subsequent discussions with the staff of
the Oklahoma Employement Security Commission (OESC) and the Office of
Juvenile Affairs (OJA) that such funds were to come to IndEx (Attachment A).

       Note: No THA employee can positively attest to any employee of OESC or
       OJA stating as a fact the Governor directed such funds to go to IndEx.

The initial contract (Attachment B) proposed by OESC also included the following
wording:

       “The IndEx (Industrial Exchange, Inc.) Program is a business-led
       initiative designed as a vehicle to provide welfare recipients with
       basic skills, education, and work experience, all with the goal of
       moving participants into full-time, permanent employment. These
       goals are consistent with the new Welfare-to-Work grant program.
       Governor Frank Keating, in utilizing his discretionary portion of the
       WtW grant program, is interested in replicating this innovative
       approach in other communities in Oklahoma. As a result, WtW
       grant funds are being provided for the purpose of replicating the
       IndEx Program in Tulsa.”




                                       47
The specific wo rding of the proposed contract confirmed to THA that such WtW funds
were intended to go to IndEx. To “replicate” the program in Tulsa when the program
already existed in Tulsa made no sense.


Tulsa Housing Authority did not initiate the contact with OESC nor did we have to
“apply” for the WtW funding.

Based upon the aforementioned discussions and the wording of the proposed
contract, THA considered the issuance of a subsequent contract to IndEx as a
“sole source” contract.

Tulsa Housing Authority also maintains that OESC was aware that THA had not
competitively bid the contract (Attachment B) which was subsequently awarded
to IndEx. The proposed contract with IndEx, in accordance with Section VII 1.b,
of the OESC Contract, was forwarded to Mr. Eddie Foreman, OESC Director of
Employment and Training, (Attachment C) on November 20, 1998. Mr. Foreman
subsequently gave verbal approval to THA staff. Further proof of OESC approval
is evidenced by their reimbursement of monthly invoices.

THA was first informed of a possible violation of procurement procedures in an
OESC monitoring report of June 30, 2000 (Attachment D, Finding #3). On July
20, 2000, THA responded to this monitoring report (Attachment E, Finding #3)
stating that THA had understood that such funds were to be awarded to IndEx
and therefore considered the contract as a “sole source” contract. OESC
responded on August 11, 2000 (Attachment F) stating:

       “…There appeared to be some confusion as to your organizations
       role as a grant recipient. This caused a lack of programmatic and
       fiscal controls to be in place. Although the lack of control led to
       some serious deficiencies, we found no evidence of any deliberate
       attempts to misuse the funds during our review. In fact we found
       your staff and those of your subcontractors making every effort to
       have a positive impact on the lives of your WtW Participants!


                                          48
         Therefore, we accept your responses and do not identify any
         disallowed costs…”.

Tulsa Housing Authority also strongly disagrees with the auditor’s conclusion that
“THA’s poor oversight of its contracts with IndEx attributed to IndEx’s waste,
abuse and mismanagement” of WtW funds.


The training program offered by IndEx has been well recognized within the state
and has also received much national recognition as well, (Attachment G). THA
acknowledges that IndEx did not meet its performance goals that were
established in the beginning of the program. This is why such goals were
subsequently modified and approved by the OESC in the Revised Program
Planning Summary (Attachment H), which apparently were not considered by the
auditors. We disagree that not meeting the goals were the result of
mismanagement, waste or abuse. THA believes the lack of more positive results
lies in the barriers associated with the clientele being served.


Many, if not most individuals, who have participated in the IndEx program, are
residents of public housing. THA and IndEx worked with the poorest of Tulsa’s
poor, reaching out to individuals that struggle daily just to have food to feed their
families and a place to call home. Many of our families earn less than $5,000
per year and are led by minority, female, single heads of household.
Unfortunately, many of these women have little formal education, few job skills,
and no transportation or childcare. The efforts of IndEx or THA to reach such
individuals were tremendous. Individuals recruited for the WtW program
administered by IndEx contained many of the aforementioned qualities. THA
maintains it was not the training, program, nor THA oversight that resulted in
minimal success, it was the individuals targeted for WtW funds, the hardest to
serve.




                                        49
The recommendation to disallow the $561,649 reflects a lack of understanding of
the difficulties in reaching and successfully servi ng the population for whom WtW
funds were intended to help. Furthermore, a repayment of these funds would
only result in further economic harm to the poorest of our poor.


THA acknowledges that some mistakes were made in the administration of the
program. THA does not now or will we ever agree that “THA’s poor oversight
attributed to, or resulted in waste, abuse, and mismanagement.”

BACKGROUND


We believe it is important to understand what IndEx is, what it does, and what the
relationship of the Housing Authority of the City of Tulsa is to the program,
therefore we present the following as a background.


Industrial Exchange, Inc. (IndEx) was formed as a 501c(3) non-profit in 1992 in
Tulsa, by Wayne Rowley, Director of Workforce Development for the
Metropolitan Tulsa Chamber of Commerce, a relationship that was maintained by
the Chamber until May of 2001. IndEx was specifically designed to execute
contract services with Oklahoma firms while providing training, education, work
experience, and long-term e mployment opportunities for the unemployed and
economically disadvantaged. IndEx was the answer to more than one problem
with the Tulsa labor market.

At the time, three significant events were taking place in Tulsa, making the
market ripe for a program like IndEx. First, the Tulsa economy was booming,
which began to drive up the cost of skilled and semi-skilled labor in the local
area. Secondly, the number of families receiving welfare payments from the
Oklahoma Department of Human Services (DHS) was increasing at a rapid rate.
Finally, Zebco, Inc., one of Tulsa’s largest employers was planning to close its
Tulsa plant and ship the operation overseas, due to the labor shortage and




                                       50
expense of the local labor pool. The shortage combined with the rising labor cost
was driving up the production price of assembly for their fishing rods.

These factors provided the perfect mix for the conception and birth of the IndEx
program.

To address the labor issue, the Tulsa Chamber of Commerce approached DHS
with a proposal for IndEx to become a Community Work Experience Program
(CWEP) site. DHS would promote and encourage participation in the program
among their welfare recipients. The wage earned by the participants would be
the recipients’ welfare grant. Half of the person’s time would be spent in the
production lines and half in a classroom setting involved in job readiness and
educational activities. This was a huge collaboration which required DHS to
make several changes in the CWEP program: the rule that no more than three
CWEP workers could be assigned a site was changed; the three month limit on
placement was eliminated; and participants were required to participate full-time.

Zebco recognized several benefits to the arrangement. First, by contracting with
IndEx, to meet production orders, Zebco was able to keep production and other
jobs in the community. Second, IndEx was able to offer Zebco competitive piece
rates to fill the order, thus reducing their labor costs. Finally, IndEx provided an
opportunity for participants to be trained on Zebco’s machinery. IndEx
hypothesized that this arrangement would create opportunities for participants to
roll over into full-time, permanent positions at the Zebco facility doing similar
work. With the early success of the venture with Zebco, other local companies
contracted with IndEx as well, including Hilti, a manufacturer of construction
equipment and supplies; Communication Graphics, a printing company; and
Laufen International, a manufacturer of ceramic tile, for which IndEx assembled
catalogs, promotional materials, and direct mail materials.

The Tulsa Chamber of Commerce and IndEx established an informal credit
system allowing IndEx to cover its start up costs and lease. IndEx then began



                                        51
applying for and receiving a series of grants from a variety of sources, including
local private foundations, corporate giving programs, and a Community
Development Block Grant. Additionally, IndEx received a contract award through
DHS and the Job Opportunities and Basic Skills Training Program (JOBS) as a
CWEP placement. However, most of the operating budget was generated
through the piece-rate contracts negotiated with companies providing work to
IndEx.

It is clear that the Tulsa community was open to supporting a local initiative such
as IndEx. DHS had an endless low cost labor pool, Tulsa Foundations and other
funding sources provided substantial donations and grants to support the
program, local businesses were open to testing the cost saving measures
proposed by IndEx These factors combined to create the perfect climate for the
implementation and early success of this program.

Welfare Reform brought significant impact to the IndEx Program. In years prior
to Welfare Reform, an ample supply of labor came through the Program as DHS
staff referred clients who needed basic education and job skills training to the
program. However, in 1996 Congress passed the Personal Responsibility and
Work Opportunity Reconciliation Act. The passage of the Act ended welfare as
we knew it, DHS ended the Aid to Families with Dependent Children program
(AFDC). A conservative new program was created with an emphasis on moving
recipients from Welfare to Work. The new program, Temporary Assistance to
Needy Families (TANF) established a limit of two consecutive years and a
lifetime limit of five years that an individual could receive welfare benefits. These
changes rapidly moved people off the roles and into the workforce.


IndEx stood ready to process the flow and provide basic education and job skills
training to many who had never worked.

The IndEx program continued to grow and expand; providing training for Tulsans
that many thought were unemployable.



                                       52
Tulsa Housing Authority and IndEx served a similar client base. Therefore, a
natural a lliance between the two agencies rapidly developed as both shared the
same goals in assisting clients in becoming self-sufficient. THA and IndEx
collaborated on several different grant opportunities including the Youthbuild
Program through the U.S. Department of Housing and Urban Development
(HUD), the Economic Development Self-Sufficiency Program also through HUD,
and a United Way Venture Grant. Due to the long standing relationship between
the agencies and IndEx’s relationship with the Tulsa Chamber of Commerce,
THA had no reason to be concerned in 1997 when the Executive Director of THA
was contacted by Mr. Wayne Rowley, who was both the President of IndEx and
the Director of Workforce Development for the Tulsa Chamber of Commerce,
regarding the potential for the two agencies to once again collaborate on a
funding opportunity through the State of Oklahoma.


CURRENT STATUS OF PROGRAM


In March 2001, the Tulsa Chamber of Commerce contacted THA and expressed
that they no longer had an interest in supporting the IndEx Program and asked if
THA would be interested in assuming the leadership role. At that time, the THA
Executive Director appointed a team of four senior staff members to determine
the feasibility of purchasing the job training program from IndEx. In May 2001,
based on THA’s belief in the need for a program of its kind to be located in Tulsa,
and due to the potential benefits the concept held for THA residents, THA
purchased the Job Training Program from IndEx. IndEx no longer exists as a
functioning legal entity.


Tulsa Housing Authority is a Public Housing Authority (PHA) federally funded by
the U.S. Department of Housing and Urban Development (HUD). The
disallowance of these funds will materially and adversely impact the Public
Housing program of the City of Tulsa and will only hurt the people we are here to




                                      53
serve. All THA funds are dedicated to providing housing for the under privileged
population of Tulsa.


Tulsa Housing Authority will address and respond to each of the four findings in
the following pages.




                                      54
FINDING 1
THA did not follow procurement procedures in order to select IndEx as a
WtW service provider; consequently, THA contracted with an organization
not financially solvent or proven successful enough to administer Federal
grant funds.


RESPONSE TO FINDING 1
IndEx, a nationally acclaimed business model sponsored by the Tulsa
Metropolitan Chamber of Commerce, was selected as a “sole source”
provider in accordance with established procurement procedures.


Tulsa Housing Authority (THA) disagrees that procurement procedures were not
followed. As previously stated in the Executive Summary, THA agrees we did
not competitively procure the services of IndEx. For reasons also previously
stated THA considered the award of a contract to IndEx as a “sole source”
contract. It was clear to THA that such funds were intended to go to IndEx.


In further support of our position that IndEx was a sole source provider THA
references the same report cited by the Auditor; Manpower Demonstration
Research Corporation (September, 1997)
“IndEx is not the only education and training provider in Tulsa, although it is
unique in its direct ties to the private sector through the Chamber of
Commerce…”
“Emerge and Project HIRE are planning to join forces, with Emerge providing
part of the GED Preparation for HIRE Students and HIRE providing additional
vocational training for Emerge students. While both of these programs are
important players in the overall landscape of education and training, IndEx has
been able to develop a unique niche for itself. It is the only program with no
minimal education requirements for participants and it is the only one to provide
both education and real work experience at the same site. The programs unique




                                   55
approach makes it one of the only options for welfare recipients with low
educational skills who want work experience and training in light manufacturing.”


THA would also submit that in accordance with the original contract between the
Oklahoma Employment Security Commission (OESC) and THA (Attachment B)
that Section III.c. states,
“…Governor Keating, in utilizing his discretionary portion of the WtW grant
program, is interested in replication of this innovative approach in other
communities in Oklahoma. As a result, WtW grant funds are being provided for
the purpose of replication of the IndEx Program in Tulsa.”


In response to the Fiscal and Programmatic Monitoring Review Report issued on
June 30, 2000 (Attachment D) by OESC. THA responded to Finding No. 3, No
procurement was conducted in the selection of a Service Provider. Therefore, the
entire contracted amount of $130,500 with IndEx are questioned costs. THA’s
response to Finding No. 3, submitted on July 20, 2000 (Attachment E) stated,
“…Because of the wording in the contract between OESC and THA, a sole source
contract was executed. No other IndEx entities operate within the Tulsa Service
Delivery Area (SDA). Procurement will be conducted before service agreements
are established for any future contract amounts.”
Note: The Fiscal and Programmatic Monitoring Review Report of June 30, 2000
was issued after completion of the first contract with OESC and after the second
contract with the Oklahoma Juvenile Authority (OJA) and IndEx had already
been signed.


It should be further noted the OESC response of August 11, 2000 (Attachment F)
stated, “…Therefore, we accept your responses and do not identify any
disallowed costs.”


Tulsa Housing Authority is a Public Housing Authority (PHA) and therefore
governed by 24 CFR Part 85, Administrative Requirements for Grants and



                                   56
Cooperative Agreements to State, Local and Federally Recognized Indian Tribal
Governments. Part 85.36 allows PHA’s to use “sole source” as a form of a
noncompetitive bid. THA complied with this requirement and established
Purchasing/Contracting procedures of the Authority.


Tulsa Housing Authority also does not agree with the auditor’s finding that,
“THA contracted with an organization not financially solvent or proven
successful enough to administer Federal Grant funds.”


The Auditor’s cite two examples which purport to demonstrate “IndEx’s
inadequate financial position.” The first contract with IndEx was signed on
December 16, 1998. It is obvious the December, 1998 nor 1999 year ending
financial statements were not available at that time as they are now. Delinquent
aged accounts payable, by themselves, provide no proof of financial insolvency.
Such balances serve at its best only an indicator and if not considered in
conjunction with other account balances, such as cash, provide no “warning” of
financial insolvency.


The other example represented to be that of financial insolvency is the $3,150 of
insufficient funds charges and overdraft and returned item fees on the bank
statements for 9 of 27 months between January 1999 and March 2001. THA
entered into it’s first contract in October 1998. It is clear that if you have the
luxury of looking back for 27 months you could state this fact was an indicator of
potential financial problems. A retrospective look back from 2001 is not possible
in 1998, when the contract began.


Tulsa Housing Authority had no reason to believe, prior to or subsequent to the
contracts that IndEx was in financial difficulty or insolvency. IndEx was
sponsored by and supported by the Tulsa Chamber of Commerce. Wayne
Rowley, the President of IndEx was also the Director of Workforce Development
for the Tulsa Chamber of Commerce. The Tulsa Chamber of Commerce



                                    57
represents most of the many corporations and other businesses in Tulsa,
Oklahoma. The Board of Advisors (Attachment I) for the Tulsa Chamber of
Commerce reads as a “Who’s Who” of Corporate Executives in Oklahoma. The
retired Executive Director of the Tulsa Chamber of Commerce, Clyde Cole, was
considered by many as the “Dean” of Chamber Executive Director’s in
Oklahoma.


IndEx was sponsored and supported by the Tulsa Chamber of Commerce. The
Board of Directors for IndEx included leading corporate and community leaders:
Board Chairman
            David Smith, Director of Human Resources,
            American Transportation of Oklahoma

Members          Jerry Holder, President, Allegra Printing and Imaging
                 Phil Miller, Director of Human Resources, Whirlpool
                 Ken Lackey, President of the University of Oklahoma-Tulsa
                 Dan Morgan, Gable & Gotwals,
                        General Counsel to IndEx Inc.
                 Phil Lakin, Jr, President, Tulsa Community Foundation
                 Scott Tindal, President & CEO, Hilti
                 Chip Meade, President, Anchor Paint
In Attachment J are numerous newspaper and magazine articles citing the great
work of IndEx and the Tulsa Chamber of Commerce. Based upon all of these
facts THA had no reason to believe that IndEx was or would become insolvent.


THA also disagrees with the auditor’s statement that, “IndEx also did not have a
record of past success as a service provider.” The auditor’s cite one example, an
excerpt from the September 1997 study performed by Manpower Demonstration
Research Corporation (Attachment K). We agree with the excerpt as stated,
“…no reliable data are available on the rate of job placements or on retention in
unsubsidized work, which would provide a measure of IndEx’s overall success.”,
however, if you read the entire report THA believes the report reflects a positive
view of IndEx.




                                   58
Tulsa Housing Authority also disagrees with the statement, “In addition, an IndEx
official informed the OIG that IndEx did not have experience with Federal
Programs before receiving the WtW funds.” This “official” is wrong. THA and
IndEx collaborated on two federal grants prior to receiving WtW funds. These
grants included Economic Development/Self-Sufficiency in 1997 and YouthBuild
in 1998 and 1999. Both are federal grants funded through the U.S. Department of
Housing and Urban Development. THA was the grant recipient of the funds.
IndEx provided a major role in the administration of the programs.


In summary, THA disagrees with the findings that: 1) THA did not follow
procurement procedures in order to select IndEx as a WtW Service Provider. 2)
THA selected an insolvent service provider with no record of past performance.
3) WtW participants received training that was of little value that resulted in poor
performance. 4) IndEx’s financial management system was inadequate to
administer federal grants. 5) The validity of IndEx’s selection as a WtW service
provider and also the validity of the training as a result of procurement. In fact,
items 3 and 4 of the auditor’s conclusion are not supported by the details provided
in Finding 1.




                                   59
FINDING 2
IndEx spent $561,649 of the Governor’s WtW Discretionary contract funds while providing
inadequate training and services to only a few participants resulting in dismal program
outcomes.


RESPONSE TO FINDING 2
Supervision of the IndEx Program by the Tulsa Housing Authority was commensurate with
the responsibilities for administering the Program accepted by IndEx and its Board of
Directors which consisted of established, capable, and prominent leaders in the Tulsa
business and social service communities.


IndEx provided the training program and services for which it was contracted; meeting its
projected participation goals regardless of cumbersome, confusing and restrictive eligibility
requirements for the hardest to serve of welfare recipients.


THA does not agree that IndEx provided inadequate training and services to only a few
participants resulting in dismal program outcomes.


By virtue of the segment of the population that is served and the eligibility requirements
imposed by the federal government, this task is extremely difficult. Much time and energy was
spent in recruiting clients that met the cumbersome and restrictive eligibility requirements.


THA believes the auditor’s opinion, “IndEx used the Governor’s WtW Discretionary funds to
keep the nonprofit solvent rather than to benefit TANF recipients,” is without merit. Such an
opinion implies an understanding of the “intent” of the officials of IndEx. The number of
participants served whether minimal or dismal does not in and of itself support the auditor’s
opinion. It was unequivocally not the intent or position of Tulsa Housing Authority to spend
the WtW funds for the solvency of IndEx.


THA agrees that many participants received no wages and received only their TANF benefits.
THA staff was informed by OESC staff that participants had a choice; they could receive



                                           60
wages or continue with their TANF benefits and thus maintain medical benefits. THA
allowed participants to continue with TANF benefits.


THA disagrees with the auditors opinion that work experience described as light
manufacturing, packaging, assembly or occasional mail, regardless of educational
background or experience results in “little useable skills”.

This opinion cannot be justified. The program’s purpose was not to teach an
actual job or an actual job skill, but to allow a participant who had little or no
exposure to a work environment, to gain “real work” experience in a learning
environment. In this environment, participants worked only with their peers;
individuals just like them. The real work experience gave participants the
opportunity to learn basic values such as:
   Ø Workplace safety for the manufacturing industry.
   Ø How to be on time for work, reliable and the importance of a good attitude.
   Ø Interpersonal skills, self-esteem, communication, teamwork and parenting.
   Ø Basic financial planning and management practices (personal and small
     business).
   Ø How to use information, resources, systems and technology.
   Ø The value of thinking skills and development of personal qualities.
   Ø How to use basic tools, read a tape measure and read blue prints.




The Manpower Demonstration Research Corporation (Attachment K) report cited by the
auditor’s further supports this issue in the following statement:
       “…by contracting with local companies to perform light manufacturing and packaging
       work at a central site, also provides them with work experience. This arrangement is
       designed ………provide participants with meaningful work experience as a step
       toward permanent job placement.”



                                          61
The IndEx program was developed to teach the skills necessary for entry-level jobs.
Participants are more likely than not to be individuals with minimal if no job skills and are
considered unemployable.


The IndEx program provided an opportunity for participants to spend half of each day in
Adult Basic Education classes working to obtain their General Equivalency Diploma (GED)
or improve their educational skills. Additionally, time is also allowed to improve the
participant’s computer skills in programs of Word, Excel, and Access. During these
computer training sessions participants were also taught how to, and were allowed to prepare
their resumes.


The second half of each day was working in the light manufacturing and
assembly area. The program’s purpose was not to teach an actual job or an
actual job skill, but to allow a participant who had little or no exposure to a work
environment, to gain “real work” experience in a learning environment. In this
environment, participants worked only with their peers; individuals just like them.
The real work experience gave participants the opportunity to learn basic values
such as:
   Ø Workplace safety for the manufacturing industry.
   Ø How to be on time for work, reliable and the importance of a good attitude.
   Ø Interpersonal skills, self-esteem, communication, teamwork and parenting.
   Ø Basic financial planning and management practices (personal and small
     business).
   Ø How to use information, resources, systems and technology.
   Ø The value of thinking skills and development of personal qualities.
   Ø How to use basic tools, read a tape measure and read blue prints.


The Manpower Demonstration Research Corporation (Attachment K) report cited by the
auditor’s states the following:




                                          62
       “New work requirements and time limits have dramatically raised the
       stakes for quickly employing and securely retaining people in the labor
       market. In light of the fact that past welfare to work programs have met
       with varying degrees of success and given the magnitude of the current
       challenge, new approaches are needed.


       Although a national welfare to work initiative has been launched to
       mobilize the private sector to hire and train welfare recipients, questions
       remain about how least to involve the business community in the welfare
       to work challenge.


       One pioneer in this area, the Metropolitan Tulsa Chamber of Commerce, established
       an innovative welfare to work program in l992 called Industrial Exchange (IndEx)
       centered on the promise that welfare reform and economic development are mutually
       compatible goals, IndEx provides education activities for welfare recipients and, by
       contracting with local companies to perform light manufacturing and packaging work
       at a central site, also provides them with work experience. This arrangement is
       designed ………provide participants with meaningful work experience as a step
       toward permanent job placement.”


       Note: As previously expressed in THA’s response to the Executive Summary, many of
       the IndEx participants represented the most disadvantaged and the hardest to employ
       members of society.


Unlike other “training” programs, the IndEx program had no minimum education
requirements. Any participant who had the desire to try was allowed to enroll.


THA agrees that of the 59 individuals, 18 were high school graduates or had their
GEDs at the time they enrolled, including 2 participants with 2 years of college. It
should be noted that of those 18, some had TABE test scores in reading and
math under the 5 th grade level and as low as the 2nd grade level indicating a



                                          63
definite barrier to employment and substantiating the benefit of attending the
GED classes.


All participants chose to participate in the program after touring the facility,
regardless of their educational background or experience, and understood the ½
days of the program. The participants with higher scores did receive benefit from
the ½ day schedule and the useable skill of daily structure as required in
employment that was missing from many of their lives. They were able to
complete their computer training during this time frame also.


Program Outcomes


THA disagrees that IndEx charged the WtW program $561,649 for the period
December 16, l998, to June 30, 2001; $38,908 of incurred costs were approved
by OESC to be paid by THA from the third grant of WtW funds of $600,000.
These costs included the salary of THA’s WtW coordinator and wages for the
participants. There was no contract for services with IndEx for the expenditure of
the $38,908. These were costs expended directly by THA.


Numerous participants dropped from the program, which is further evidence of the
population that the WtW funding was set up to serve. Once again the Welfare to Work
Program (WtW) represents an effort to move many of the hardest to employ welfare recipients
into employment and economic self-sufficiency. It should not be a surprise to anyone for the
drop out rate to be high.


THA believes that all 59 individuals were eligible for the program. OESC has confirmed the
eligibility of all participants.


THA disagrees that any participants were expelled from the program. Participants were
dismissed from the program due to non-attendance issues, fighting, and failure to follow
facility rules. All participants could have requested re-entry into the program. Again, it



                                          64
should be noted that the WtW program represents an effort to move the hardest to employ
welfare recipients into employment and economic self-sufficiency. IndEx only dismissed
participants from the program for issues that would affect their ability to locate and retain
employment.


THA records indicate that only 7 participants obtained employment as a benefit of direct
placement services offered by IndEx. However, file documentation indicates that at least 6
other participants used the skills and information obtained at IndEx to locate employment on
their own.


THA agrees that of the 59 individuals 24 were enrolled between December 1998 and
September 1999. These dates are the contract dates of the THA/IndEx contract.


The OIG Report indicates that 3 participants were enrolled between October 1999 and
September 2000. THA would like to point out that this period is not reflective of any actual
contract period and THA believes that the auditor selected this period, which reflects few
participants, in order to further emphasize the negativity of this report.


Furthermore it should be noted that the contract between OJA and THA began in February
1999 and extended through January 2001. During the initial term of this contract only WtW
eligible youth referred by the Tulsa County Office of Juvenile Affairs were eligible to be
served. After several months of attempting to enroll adjudicated youth through the Tulsa
County OJA, all staff involved realized that this was not feasible due to the fact that the youth
were not TANF recipients and the youth did not have verification of their parents’ TANF and
other eligibility criteria. Also, Tulsa County OJA officials did not want to refer the youth for
a work training and GED program, they wanted to return their youth to the public school
system. OJA dedicated a full time employee to work internally with juvenile affairs with the
hope of increasing the participation. Much time and energy was spent in trying to recruit
eligible individuals resulting in the use of funds prior to the actual enrollment of the
participants. THA staff spoke with OJA staff and received approval to use grant funds during
the recruitment efforts.



                                           65
Effective September 1999 the contract was modified to include serving youth and
adults that met the WtW requirements. The contract was additionally modified to
include referrals from any agency or organization that has knowledge of or is
working with juveniles or adults that meet WtW eligibility criteria rather than solely
relying upon the referrals of Tulsa County OJA.


The low participation rate during this time period can further be explained by the
fact that because all WtW programs were having difficulty meeting their
performance goals due to the stringent eligibility requirements. The requirements
were changed on July 1, 2000, making custodial parents with incomes below 100
percent of the poverty line eligible to participate in the WtW program. This
allowed THA to refer many public housing residents to IndEx for participation in
the program.


THA agrees that 32 participants were determined eligible between October 2000
and June 2001. However, OESC suspended the WtW funds on February 2,
2001 and would not allow THA to recruit any additional participants. This action
by OESC further impeded the success of the WtW program and attributed to the
higher cost per participant.


Excessive expenditures on few participants

THA agrees that the outcomes were not as originally anticipated because of the
reduction in the TANF roles shortly after the beginning of the contract and the
stringent eligibility requirements of the WtW program. However, THA disagrees
that the performance outcomes were dismal considering the population that is
served and the barriers they face.


THA agrees that the participants, on average, stayed in the program for a short
time. At least 3 participants dropped from the program due to medical reasons



                                        66
and at least 3 more dropped from the program because of pregnancy. THA
believes that staying a short time in the program is evidence of the difficulty of
the task and confirmation that the WtW program is an effort to move the hardest
to employ welfare recipients into unsubsidized jobs and economic self-
sufficiency. The lack of attendance further emphasizes the benefit of the very
nature of the IndEx program to provide basic yet useable skills such as accepting
direction from a supervisor, the importance of showing up to work, structure,
productivity, consistency, and efficiency. All of these skills are very useable and
necessary in gaining employment. The MDRC report (Attachment K) cited IndEx
as an innovative welfare to work program and provided participants with
meaningful work experience as a step toward permanent job placement.


THA disagrees with the schedules presented. THA believes that the costs to the
WtW program in these schedules do not give an accurate reflection o f cost
because it does not reflect the time and energy of the staff spent in recruiting
clients that met the cumbersome and restrictive eligibility requirements.
Additionally, the schedules do not reflect the attendance of participants prior to
being determined eligible.


It is THA’s contention that engaging the participants in activities while awaiting
the paperwork flow was advantageous to retaining the participants in the WtW
program. If this had not occurred, the participants would have lost interest and
dropped from the WtW activities without receiving any benefits.       In October of
l998, OESC instructed THA to contact the local Service Delivery Area (SDA)
office to determine eligibility. This had a detrimental effect on the participation at
IndEx since the SDA and IndEx were competing for the same clients, upon
determination of eligibility the SDA would keep the clients in their program.
During the monitoring review by OESC in March 2000, OESC instructed THA
that it was responsible for establishing eligibility and not to use the SDA.




                                        67
The following charts reflect Contract periods 1 and 2. They reflect the records of
THA as to the number of participants enrolled per month, the average days of
enrollment per month, and the cost to the WtW program per month. They show
not only that our findings are slightly different from the Auditor, but also, the
numbers reported to THA by IndEx are significantly different.




                     Number Enrolled per THA
                        Contract 1 – Chart 1
     Month                       Number           Average
     Enrolled                   Enrolled            Days          Cost to WtW
                                                  Enrolled
    Dec l998/Jan l999                0                0             $ 18,827
        Feb 1999                     7                8                19,125
        Mar 1999                     6                13              18,426
        Apr 1999                     7                7               27,261
        May l999                     4                9               27,261
        June l999                    3                6               40,405
         July l999                   1                16               3,398
       August l999                   3                4                  682



                                         68
     September l999                      3                 11               20,898
                                                                          $ 150,001
           Total
           WtW



The following chart reflects the numbers being submitted to THA by IndEx on
their monthly program summaries.
                                Number Enrolled per IndEx
                                Contract 1 – Chart 2
            Dec 98 /    Feb 99    Mar 99      Apr 99    May 99   Jun 99   Jul 99   Aug 99   Sep 99
            Jan 99
Reported       20          20       20             20     20        7        1        3       3
enrolled



Now, as a result of these comparisons and an in-depth review, THA believes that
IndEx was being deceptive by inflating their enrollment numbers as submitted on
their monthly Program Summaries. This deception led THA to believe, at the
time, that the attendance in the program was much higher than it actually was.


The following charts reflect the records of THA as to the number of participants
enrolled per month, the average days of enrollment per month, and the cost to
the WtW program per month in Contract 2.
                     Number Enrolled per THA
                     Contract 2 – Chart 1
    Month              Number                Average
  Enrolled             Enrolled               Days         Cost to WtW
                                             Enrolled
  Apr l999 –              0                     0              $ 43,760
  Sep l999
  Oct 1999                2                     8                24,107
  Nov 1999                4                    14                30,395



                                              69
           Dec 1999                3                       9                  41,982
            Jan 2000               3                       14                 33,590
           Feb 2000                3                       12                 27,812
           Mar 2000                3                       13                 22,947
           April 2000              2                       16                 16,407
           May 2000                2                       19                 20,709
           June 2000               2                       14                 23,251
           July 2000 –             2                       16                 59,867
           Sep 2000
           Total WtW                                                         $344,827



                                            Number Enrolled per IndEx
                                               Contract 2 – Chart 2
             4     5/    6/   7/       8/     9/   10 /    11/   12 /   1/     2/   3/   4/   5/   6/   7/   8/   9/
             /99   99    99   99       99     99   99      99    99     00     00   00   00   00   00   00   00   00
Reported     0     0     10   10       15     25   23      0     9      8      8    0    0    0    0    0    0    0
Enrolled




       The OIG Report states that “The table for Contract 2 only covers April l999 through
       September 2000 because IndEx spent 93 percent of the funds ($344,827) during this period
       while enrolling only three participants, an average of $114,942 per participant.” THA would
       like to once again point out that this period is not reflective of any actual contract period and
       THA believes that the auditor used this period reflecting few participants to further emphasize
       the negativity of this report. THA would like to point out that April l999 through September
       l999 funds were only available to serve youth. As THA previously pointed out, this was an
       impossible task. The contract was modified in September l999 to allow youth and adults to be
       served under the contract. Subsequently, in July 2000 the WtW regulations regarding
       participant eligibility were changed. This change allowed more people to be served.




                                                          70
If the Auditor’s had continued their review of the program, they would have discovered that
the number of participants enrolled improved dramatically following changes made by THA.
In October 2000 – 18 participants were served; November 2000 – 17 participants served;
December 2000 – 19 participants served; and for the final month of the contract January
2001 – 20 participants were served. In conclusion, the hiring of a WtW coordinator, the
contract change from youth to adult and youth, and the change in WtW regulations provided
an opportunity for more participants to be served.


The report points out that IndEx spent the remaining $27,914 under this contract between
October 2000 and December 2000, however, it should be noted that participants were served
for the remainder of the contract period to January 31, 2001.


In an effort to re-emphasize the cumbersome and restrictive eligibility
requirements prior to the aforementioned change THA has chosen to include
portions of the definitions as found in 20 CFR 645.212 as follows in part:


Paragraph 645.212(a) required that the individual must be receiving TANF; must
face at least two of three specified barriers to employment (has not completed
secondary school or obtained a certificate of general equivalency; requires
substance abuse treatment for employment; and/or has a poor work history): and
must be a long-term TANF recipient (at least 30 months receipt of TANF or must
be within 12 months of a Federal or State time limit on TANF eligibility).
Paragraphs 645.212(b) and (c) set the criteria for serving non-custodial parents
and individuals who no longer receive TANF due to a Federal or State time limit
on eligibility. Non custodial parents were eligible when the custodial parent or
minor child is a current long term TANF recipient (30+ or within 12 months); and
required them to also face at least two of the three specified barriers to
employment as listed above. Other eligible participants were those that were
current TANF recipients and noncustodial parents who have characteristics
associated with long-term dependency such as school dropout, teenage
pregnancy, low reading or math skills, poor work history, domestic abuse,



                                         71
substance abuse, receiving housing, offender/ex-offender, individual with
disability.


It is not difficult to understand why THA and IndEx had difficulty in
interpreting, and applying such regulations as well as recruiting for such a
program.


THA disagrees further with the auditor’s findings regarding the expenditure of
$38,908 of costs incurred between December 2000 and June 2001. These
additional costs of $38,908 were incurred and approved by OESC to be paid by
THA from the new grant of $600,000.


On August 1, 2000, THA signed and returned the $600,000 contract to OESC.
THA issued a Request for Proposal (RFP) on 8/28/00 in compliance with the
OESC findings of July 2000. Two proposals were received on 9/22/00. In
November 2000, THA’s Board of Commissioners approved a Resolution
awarding a portion of the contract to IndEx. THA forwarded the contract to
OESC for approval (Attachment L). On February 2, 2001, THA received a letter
from OESC suspending the funds. On February 8, 2001, the Executive Director
of THA spoke with OESC staff and was informed that the funding was suspended
but THA could continue to pay the Welfare to Work Coordinator’s salary and the
WtW participant wages from the OESC grant until further notice (Attachment M).
On February 9, 2001, OESC staff e-mailed THA staff approving the cost of the
WtW Coordinator to attend the Welfare To Work Conference on February 20th
and 21, 2001 (Attachment N).


THA believes that the costs expended were reasonable under the circumstances
prevailing at the time the decision was made to incur the costs. All costs were
necessary for the operation of the organization and the performance of the
award.




                                      72
FINDING 3
IndEx did not come close to meeting either contract’s performance goals.

RESPONSE TO FINDING 3
IndEx met participation goals even though it was subject to stringent
contracted and regulatory eligibility requirements, while also striving to
place as many participants as possible in employment. If the auditors had
considered the amended performance goals, such conclusions reached by
the auditors would have been different.

Tulsa Housing Authority disagrees with this finding. While it is true that the
original deliverables reported on the Program Planning Summary submitted to
OESC for Contract 1 and Contract 2 are as stated in Finding 3, these goals were
revised during the contract periods to reflect a more accurate picture of the WtW
program being operated by IndEx. On October 15, 1998, the THA Grant
Administrator and Director of Resident Services attended training at the OESC
office in Oklahoma City. This was shortly after receipt of Contract 1 for $150,000


                                       73
beginning 9/1/98. At the training, THA was asked to complete the Program
Planning Summary with an estimate of how the money would be spent and an
estimate of the number of participants that the program would serve and the
number that would be placed in unsubsidized employment. The trainers stated
that this form could be revised at any time to show a more accurate picture of
how the money was being spent and who was participating in the program. The
original estimates submitted by THA (after consultation with IndEx) were
considered to be high because IndEx anticipated that future DHS referrals would
be high because large numbers of referrals had been received from DHS in the
past. Immediately following the initial receipt of WtW funding, the Department of
Human Services (DHS) began experiencing significant reductions in the TANF
roles, and the number of referrals to IndEx subsequently also began to decline.

Because of the stringent eligibility requirements of the WtW program, the
difficulty in meeting these eligibility requirements and the realization that DHS
would no longer be referring large numbers of TANF recipients to IndEx, on
1/25/99, the Program Planning Summary for Contract 1 was revised (Attachment
H) and was submitted to and approved by OESC to show the following revised
deliverables:
Participants Employment Status              Contract 1           Actual
                                            Deliverables         Performance
Number of Participants                      23                   24
Employment Status at Termination:
Unsubsidized Employment (UE)                22                   4
   Full-time                                11                   2
   Part-time                                11                   2
Remain 6 months in UE                       11                   2
Other Terminations                          1                    20

Under Contract 1, IndEx served more than 100% (24/23) of the number of
participants intended. Contract 1 was in the amount of $150,000, making the
average cost per participant $6,250. Under Contract 1, 18% of the participants


                                       74
(4/22) entered unsubsidized employment, and additional funds were expended to
provide Intake, Assessment, Eligibility Determination and Case Management
services to participants during the contract term who either dropped out of the
program or were terminated because of non-compliance. The number who
entered unsubsidized employment was lower than anticipated because of the
fact that this program presented the very difficult task of transitioning the hardest
to employ, sometimes referred to as unemployable, welfare recipients into
unsubsidized employment and self-sufficiency, THA believes these numbers are
certainly not dismal.



The Program Planning Summary originally submitted to OJA for Contract 2 is
accurately shown in the finding from DOL; however, the Program Planning
Summary showing those numbers was submitted at the beginning of the program
as an estimate. On 11/13/00 the Program Planning Summary (Attachment H)
was revised, submitted to and approved by OJA to reflect the following revised
deliverables:
                                             Contract 2            Actual
                                             Deliverables          Performance
Number of Participants                       30                    35
Employment Status at Termination:
Unsubsidized Employment (UE)                 13                    3
   Full-time                                 10                    3
   Part-time                                 3                     0
Remain 6 months in UE                        3                     1
Other Terminations                           1                     32

Under Contract 2, IndEx enrolled more than 100% (35/30) of the number of
participants i ntended. Contract 2 was in the amount of $372,741, making the
total cost per participant $10,650, a slightly higher amount than Contract 1 due to
the fact that the contract was originally for juveniles only and recruitment of this
population, as well as eligibility determination, was an impossible task. Under


                                        75
Contract 2, 8% of the participants (3/35) entered unsubsidized employment, and
additional funds were expended to provide Assessment, Eligibility Determination
and Case Management services to participants during the contract term who
either dropped out of the program or were terminated because of non-
compliance. Again, the number who entered unsubsidized employment was
lower than anticipated because of the fact that this program presented the very
difficult task of transitioning the hardest to employ, sometimes referred to as
unemployable, welfare recipients into unsubsidized employment and self-
sufficiency. THA believes these numbers are certainly not dismal.

The Auditor states that 91% of the participants were served 17 months following
the initiation of the contract. THA recognizes that this occurred and attributes
this to three factors. Those factors are outlined below.

Factor (1): From the beginning of Contract 1, all WtW programs were having
difficulty meeting their performance goals due to the stringent eligibility
requirements. These stringent eligibility requirements were finally changed July
1, 2000, making custodial parents with incomes below 100 percent of the poverty
line eligible to participate in the WtW program. This allowed THA to refer many
THA residents who were custodial parents with incomes below the poverty line to
IndEx for participation in the program.

Factor (2): From February 1999 to September 1999 Contract 2 was for only WtW
eligible youth referred by the Tulsa County Office of Juvenile Affairs. After
several months of attempting to enroll adjudicated youth through the Tulsa
County OJA, all staff involved realized that this was not feasible due to the fact
that the youth were not TANF recipients and the youth did not have verification of
their parents’ TANF and other eligibility criteria. Also, Tulsa County OJA officials
did not want to refer the youth for a work training and GED program, they wanted
to return their youth to the public school system. Therefore, Contract 2 was
modified in September 1999 to change the definition of WtW eligible participants.
Section IVA was modified to read: “THA agrees to serve youth and/or adults who



                                          76
are eligible WtW participants with the funds awarded to them pursuant to this
contract,” and Section IVA3 was modified to read: “Eligible participants, in
conjunction with the local WtW operating entity, will be referred to THA from any
agency or organization that has knowledge of or is working with juveniles or
adults that meet WtW eligibility criteria.” The Modification was signed by Tulsa
Housing Authority on 11/11/99 and by OJA on 12/19/99, and was retroactive to
September 1, 1999. (Attachment O)

Factor (3): The June 30, 2000 Monitoring Report from OESC (Attachment D)
was the first Monitoring Report conducted by OESC. THA’s management took
immediate steps to resolve the noted findings. Although the August 11, 2000
response from the OESC (Attachment F) accepted THA’s responses and did not
disallow any costs THA’s management made immediate changes.
    1) The position of Grant Accountant was strengthened.
    2) Responsibility for Grant Development and Grant Administration was
       removed from the Director of Resident Services and was assigned to a
       new position, Director of Development.
    3) A Welfare to Work Coordinator (WtW) was hired to work on-site at IndEx.
    4) Active recruitment of Public Housing residents was mandated. Active
       recruitment had not been previously mandated.

As you can clearly see in the table below, the participant numbers reported to
THA by IndEx increased dramatically following the eligibility requirement
changes, the modification to Contract 2, and the THA Executive Director’s direct
involvement and corrective action.

The table below shows the month of the year 2000 and the actual WtW program
enrollment numbers from participant files.

1/00 2/00    3/00 4/00     5/00 6/00       7/00 8/00 9/00    10/00 11/00 12/00
3      3     3      2      2      1        1    1      0     12      19        19




                                      77
In summary, IndEx met both contract’s performance goals in regard to the number of
participants enrolled in the program, as stated on the revised and approved Program
Planning Summaries submitted to OESC and OJA. The number of participants entering
unsubsidized employment and remaining in employment 6 months fell short of the goal
due to the fact that this program presented the very difficult task of transitioning the
hardest to employ welfare recipients into unsubsidized employment and self-sufficiency.




FINDING 4
IndEx’s financial management system was inadequate to account for
Federal grant funds.
RESPONSE TO FINDING 4
Response: THA appropriately placed trust and confidence in the financial,
management, and abilities of the IndEx organization because of its
business affiliation with the Tulsa Chamber of Commerce and its Officers
and Board.


Tulsa Housing Authority disagrees with the Auditor’s finding that THA entered
into a subcontract agreement with an entity which the Auditor’s thought to be
unable to handle the administrative responsibility of a federal grant. The fact that
both the Board of Advisors of the Chamber of Commerce and the Board of
Directors of IndEx were comprised of leading members of the business
community was also a major factor. The Tulsa Chamber of Commerce also
provided accounting software for the program that THA was led to believe would
meet all financial and accounting reporting needs.




                                         78
THA realized that IndEx’s exposure to the administration of federal grants was
limited to the collaborative efforts with THA on two federal grant programs,
Economic Development/Supportive Services and YouthBuild. However, in
addition to those collaboratives, a report released by the Manpower
Demonstration Research Corporation in 1997 (Attachment K), identifies
numerous other sources of funding that the non-profit had received since its
inception in 1992. The report states “IndEx received a series of small grants
(less than $50,000 each) from a variety of sources, including local private
foundations, corporate giving programs, and a Community Development Block
Grant (CDBG) from the City of Tulsa.” Furthermore, IndEx received a contract
award through the Oklahoma Department of Human Services (DHS) and the Job
Opportunities and Basic Skills Training Program, created by the Family Support
Act of 1998 (JOBS) as a Certified Work Experience Program (CWEP) placement.


Additionally, a report published by the Harvard Business School (Attachment G)
states, “From private sources, the Ford Foundation and the Charles Stewart Mott
Foundation have provided substantial support.” That same report identifies “Four
of IndEx’s customers account for 80% of its earned income: Zebco, Hilti,
Whirlpool and Jamoco.” Undeniably, THA had no reason to feel that IndEx
lacked the ability to administer a federal grant due to their relationship with the
Tulsa Chamber of Commerce, their experience contracting with international
corporations such as Zebco, Hilti and Whirlpool, and their experience with both
the City of Tulsa and the State of Oklahoma through the Department of Human
Services (DHS.)


Tulsa Housing Authority acknowledges that many mistakes were made by IndEx
in the simple “accounting” for various expenditures. Many such errors were small
in amount. The financial management systems were, in THA’s opinion,
acceptable at the time of the initial contract award.




                                        79
At the time of the initial Service Agreement in December 1998, Tulsa Housing
Authority believed that IndEx’s financial management system was adequate.
THA’s Controller met with the IndEx Executive Director to address general
accounting issues, support and documentation of monthly invoices and
especially cost allocation methodology. A “per participant” methodology for cost
allocations was discussed and agreed to at that time. THA acknowledges that a
documented acceptable cost allocation plan was not implemented as IndEx
agreed.


THA further acknowledges that some errors were made monitoring of monthly
invoices. However, Tulsa Housing Authority took immediate steps to improve
their monitoring of the IndEx program, i ncluding financial monitoring, following
receipt of the Monitoring Review Report dated June 30, 2000 from the Oklahoma
Employment Security Commission (OESC). Tulsa Housing Authority hired both
a Grant Accountant and a WtW Coordinator. The primary responsibility of the
Grant Accountant was the receipt and processing of invoices and monthly
monitoring reports sent to OESC and OJA. THA requested invoices as well as
check copies to show that the charges to the WtW program were allowable and
had been paid. THA feels that this was sufficient documentation to approve for
payment. Each invoice was compared to documentation provided to insure late
charges were not paid and current charges were allowable. If discrepancies
were found, THA staff informed IndEx who then submitted corrected invoices
before payment was made to IndEx. Spreadsheets were submitted with each
invoice to insure that no more than 100% was charged to any program. It was
not until January 2001 (following the closeout of both Contract 1 and Contract 2)
that THA discovered voided checks and other indications of improper
documentation that had been provided by IndEx. Once the Grant Accountant
was in place, the mistakes were minimal. As the findings show, Contract 2 had
minimal errors in the documentation of the monthly invoices.




                                       80
The Grant Administrator also increased programmatic monitoring efforts and put
into place a quarterly monitoring system of participant files. The Grant
Administrator monitored the participant files being kept at IndEx in September
2000, and sent a letter (Attachment P ) to the Executive Director of IndEx, noting
omissions and deficiencies found in the files. Following the hiring of the WtW
Coordinator in November 2000, the duty of monitoring participant files was
assumed by the WtW Coordinator.


The WtW Coordinator was placed on site at IndEx to work with DHS, maintain
the participant files in compliance with regulations, and make certain that costs
were charged to the appropriate cost categories.


THA also held quarterly grant oversight meetings during the term of both
Contract 1 and Contract 2 to discuss financial and programmatic matters. During
these meetings, IndEx staff gave reports indicating that WtW eligible participants
were participating in appropriate and allowable WtW activities. THA presented
financial projections and gave status reports on the grants as all staff involved
reviewed the projections.


Following receipt of the Monitoring Review Report dated June 30, 2000 from
OESC, Tulsa Housing Authority worked diligently with the staff of OESC to gain a
better understanding of this complex program. OESC’s findings were related to
eligibility determination, compliance with participant files and supporting
documentation, Individualized Strategies, and the definition of the “Work
Experience” category, as well as “Job Readiness,” and “Post Employment” and
“Job Retention” cost categories. These findings were written on June 30, 2000,
six months AFTER the close of Contract 1 and five months AFTER the beginning
date of Contract 2. In OESC’s reply to THA’s response to the findings from the
March 2000 monitoring visit, the following was stated. “OESC found no evidence
of any deliberate attempts to misuse the funds during our review. In fact, we
found the THA staff and those of your subcontractors (IndEx) making every effort



                                       81
to have a positive impact on the lives of your WtW participants. Therefore, we
accept your responses and do not identify any disallowed costs.”


Perhaps THA should have taken a closer look at the financial stability of the
entire IndEx corporation earlier, however, THA did not feel that this was
necessary due to IndEx’s standing in the community and their past performance
as earlier discussed. THA did, however, monitor the financials regarding the
WtW Program that were prepared monthly and quarterly internally and with the
IndEx staff.


In January 2001, THA accounting staff assisted IndEx in closing out their
calendar year 2000 financials. It was at that time that THA became aware of
weaknesses in the IndEx financial system and software. THA then
recommended that IndEx purchase and utilize software called “Peachtree 2000”
which they implemented in February 2001.


In March 2001, the Tulsa Chamber of Commerce contacted THA and expressed
that they no longer had an interest in supporting the IndEx Program and asked if
THA would be interested in assuming the leadership role. At that time, the THA
Executive Director appointed a team of four senior staff members to determine
the feasibility of purchasing the job training program from IndEx. In May 2001,
based on THA’s belief in the need for a program of its kind to be located in Tulsa,
and due to the potential benefits the concept held for THA residents, THA
purchased the Job Training Program from IndEx.


Once again, THA acknowledges mistakes were made in the financial accounting
of expenditures. Many such mistakes are minor in amount. THA maintains that
it had every reason to believe that IndEx had an adequate financial system to
administer federal grants.




                                      82
Tulsa Housing Authority did not provide “poor” oversight as maintained by the
auditor’s statements.


Tulsa Housing Authority has responded to each individual finding included in
Finding #4 in the following pages.




A. No cost allocation plan (CAP).

Management Corrective Action Plan:

      THA agrees that IndEx did not have a documented allocation plan. THA
      has further reviewed the methodology used with the IndEx Executive
      Director and agrees the methodology was not a supportable method.


      As previously noted, THA had agreed to an acceptable “per participant”
      allocation method with IndEx. Such method was never implemented and
      THA failed to recognize this fact.


      If it becomes necessary, THA would request that it be assisted in
      establishing an acceptable allocation method and be allowed to reallocate
      costs accordingly.




                                      83
B. Unallowable costs charged to the contracts.

Management Corrective Action Plan:

(1)   Precontract costs -

      THA agrees most of these cost incurred were prior to the contract date with
      IndEx for Contract 1. THA did not find that Sand Springs Home invoice
      was charged to the program at 46% and $788. The grant was charged at
      23% and $736. THA also did not find the Amerigas invoice dated December
      was charged to the program at 53% for $20.57. The documentation for that
      invoice represents 50% for $62.65.

(2)   Credits and refunds –

      THA agrees credits were issued to IndEx and the WtW program did not
      received the benefit on Contract 1.




                                      84
(3)   Duplicate payments –

      THA has reviewed invoices provided in Attachment 3 and agrees with most
      on Contract 1. THA found the American Waste invoice for February to be
      for two separate billings with a different invoice amount.

(4)   Late payment fees –

      THA agrees with Attachment 4 that late charges were paid in error on
      Contract 1.


      THA reviewed Attachment 5 and only found 3 out of 32 invoices where late
      charges were paid in error.

(5)   Charges for non-WtW participants –

      (a)    THA agrees.

      (b)    THA agrees that the individuals were not WtW participants. The
             Executive Director of IndEx reports that they were students acting in
             a lead/supervisory position. Students that were most employable were
             promoted to the lead/supervisory position to gain additional
             experience that reflected positively on his/her resume. The positions
             were on a rotational basis and as they became employed or left the
             program others were selected for the positions.



(6)   Excess rent –

      THA agrees with the finding on Contract 1.


      THA disagrees with all the finding on Contract 2. THA agrees that there
      was no invoice for rent provided on June 1999 invoice. However, the check
      received was for July 1999 rent not June 1999.        THA disagrees that an
      invoice for rent was not provided on July 1999 invoice. The documentation



                                       85
      provided indicates this is for August 1999 rent not July 1999. THA was
      unaware of any checks that were later voided.

(7)   Repaid expenses –

      The WtW program was charged $36,225.77 for technical assistance and
      supportive services THA provided IndEx. THA repaid IndEx $30,984.08 for
      the amount that IndEx had actually paid to THA.            The difference of
      $5,241.69 was not paid to THA by IndEx and therefore remained with IndEx
      to further benefit the program. The Executive Dire ctor of IndEx told THA
      that the funds repaid by THA were used to pay whatever expenses were due.
      THA repaid the program in good faith to further benefit the WtW
      participants.




(8)   Costs directly and indirectly charged to the program –

      IndEx charged the WtW program salaries and benefits based on an allocated
      portion of all personnel. THA agrees that a supportable allocation method
      was not used and is requesting assistance to establish and reallocate such cost
      on an agreed upon method.

(9)   Insurance on leased building –

      IndEx carried General Liability, Auto and Property insurance.            THA
      believes insurance coverage was necessary in order to protect the contents in
      the building. The van was used to transport participants and protect IndEx
      in case of injury or accident. Insurance was not for the building, which the
      landlord covers, but for the contents inside the building or liability claims
      filed from participants.




                                       86
C. Inadequate documentation.

Management Corrective Action Plan:

(1)   Employee Reimbursements –

      (a)    THA disagrees that there was no documentation to support the
             expense. Attached to the expense reimbursement form were invoices
             from vendors to buy supplies for the production floor. THA believes
             these expenses were necessary in order for the participants to produce
             the products.

      (b)    THA agrees.

      (c)    THA agrees.

      (d)    THA agrees that Wayne Rowley and Jeff Walderich were Tulsa
             Chamber of Commerce employees.         Wayne and Jeff had gone to
             trainings, meetings and provided consultant work that was outside the



                                      87
             scope of there normal work. IndEx management made the decision to
             pay for their time and effort. These specific costs are ineligible.

      (e)    THA has reviewed the October 1999 and March 2000 invoices for
             charges to the WtW program for Wayne Rowley’s wireless phone.
             THA disagrees that the charges to this program were for Wayne
             Rowley’s wireless phone.

(2)   Rental Reimbursements –

      IndEx and Keystone had only a verbal, month by month, lease. THA was
      provided a state ment from IndEx for the monthly amount of rent with check
      copy for proof of payment.        THA believes this is supportable and an
      allowable expense. THA was unaware of any checks that were later voided.

(3)   Vendor Expenses –

      The payments made to Sarge’s Manufacturing were for security provided to
      IndEx. THA asked the Executive Director of IndEx to explain what security
      Sarge’s provided.     Attached is a memo (Attachment Q) stating the
      responsibilities of Merle Brown. THA paid IndEx based on invoices and
      check copies provided to support these expenses.

(4)   General Expenses –

      THA has reviewed the table provided in Attachment 6 for Contract 1. THA
      agrees that 2 out of the 5 listed did not have proper documentation.


      THA has reviewed the table provided in Attachment 6 for Contract 2. THA
      agrees that 3 out of the 22 listed did not have proper documentation.


(5)   Participant Supportive Service Expenses –

      THA agrees.

(6)   Voided or Missing Checks –


                                        88
      (a)   THA agrees the check written to the Executive Director of IndEx was
            later voided.   THA disagrees that the receipts included for that
            expense were not eligible. These expenses were for supplies used to
            operate the program.


      (b)   THA agrees.


      (c)   THA was provided proper documentation including check copies and
            invoices for proof of payment. THA was unaware of any checks that
            were later voided.




(7)   Transportation Expenses –

      (a)   There is a list of individuals who participated in tours and
            orientations at IndEx.    Bus passes were given to many of these
            participants. THA agrees other than this list, specific participants
            who received bus passes cannot be identified.


      (b)   Bus passes were given to participants, by the book, which included 10
            bus rides for $6, if they were going to ride Metropolitan Tulsa Transit
            Authority shuttle. If IndEx’s van was used then the participant were
            charged only $3. THA agrees that the amount charged should be in
            equal increments.


      (c)   There is a list of individuals who participated in tours and
            orientations at IndEx.    Bus passes were given to many of these
            participants. THA agrees other than this list, specific participants
            who received bus passes cannot be identified. THA agrees that the
            same documentation was used for both June and July 2000 invoices.



                                     89
      (d)    IndEx provided bus passes on site as a convenience. The participants
             purchased them form IndEx to save the time and effort required in
             going elsewhere to purchase them. THA agrees that the bus passes
             should not have been deducted from the Work Experience of WtW
             participants since they could have been charged to WtW as a
             Supportive Service.




(8)   Salary Expense -

      IndEx charged the WtW program salaries and benefits based on an allocated
      portion of all personnel. IndEx did not keep time and attendance records for
      employees but did for the participants in the program. THA is unaware that
      time and attendance records are a requirement but that a supportable
      allocation method would be sufficient.

(9)   Program Income –

      On numerous occasions, THA staff informed OESC staff that THA has only
      federal funds available and therefore, cannot provide a “match”.


      THA was never involved in the decision as to what was an in kind match.
      OESC staff contacted IndEx directly regarding any match requirements. A
      copy of this letter (Attachment R) dated July 16, 2000, supplied by IndEx to
      Tami Decker of OESC indicting match and contributions from Hilti.




                                      90
      Reviews and numerous discussions between OESC, OJA, and THA never
      addressed compliance or non-compliance regarding the program income
      requirement.


      It was THA’s belief they were in compliance with the contract between
      OESC and OJA.




CONCLUSION

In the proceeding pages, THA has consistently made the point it followed a clear
understanding and direction that Welfare to Work (WtW) funds received were to
be passed to Industrial Exchange, Inc. (IndEx). Because of this understanding,
THA selected a “sole source” provider in accordance with the State of Oklahoma,
THA, and U.S. Department of Housing and Urban Development (HUD)
procurement requirements. THA did not violate procurement requirements.


THA has included detailed explanation and numerous attachments regarding the
history of IndEx, its association with the Tulsa Chamber of Commerce and the
national as well as local publicity of the Index job-training program. THA’s
oversight efforts have been documented along with corrective actions taken by THA
working closely with the Oklahoma Employment Security Commission (OESC) to
implement and better monitor the WtW program. The auditors allegation of,
“waste, abuse, and mismanagement”, is not only incorrect, but wrong.

THA recognizes this is the first audit of its kind of a Welfare to Work (WtW)
program by the regional Office of the Inspector General. The apparent lack of
performance standards or program expectations has resulted in what THA believes
to be more of a political statement about the lack of success of a federal program,



                                      91
Welfare to Work (WtW), which resulted in harsh judgment with no available
comparison. In addition, had the auditors considered the amended performance
goals, the report would not have reached the same conclusion.

Some mistakes were made in accounting for expenditures of the WtW program.
Most mistakes were of a simple accounting nature. THA further acknowledges
that failure to follow-up to confirm IndEx, Inc.’s implementation of the agreed
upon cost allocation plan is a concern.


The recommendation that “…the Assistant Secretary for Employment and
Training to disallow questionable cost of $561,649…..” cannot be justified.


IndEx no longer exists as a functioning legal entity. THA purchased the job-
training program in May 2001. Tulsa Housing Authority is a Public Housing
Authority (PHA) federally funded by the U.S. Department of Housing and Urban
Development (HUD). The disallowance of these funds will materially and
adversely impact the Public Housing program of the City of Tulsa and would only
hurt the people we are here to serve. All of our funds are dedicated to providing
housing for the under pri vileged population of Tulsa.


THA is receptive to working with the U.S. Department of Labor and the
Oklahoma Employment Security Commission (OESC) to resolve all findings.




                                       92
93
94
95
96
97
98
99
100
101
102
103
